<html>
<title> - H.R. 3994, ``FEDERAL LANDS INVASIVE SPECIES CONTROL, PREVENTION, AND MANAGEMENT ACT''; AND H.R. 4751, TO MAKE TECHNICAL CORRECTIONS TO PUBLIC LAW 110-229 TO REFLECT THE RENAMING OF THE BAINBRIDGE ISLAND JAPANESE AMERICAN EXCLUSION MEMORIAL, AND FOR OTHER PURPOSES</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




 
 H.R. 3994, ``FEDERAL LANDS INVASIVE SPECIES CONTROL, PREVENTION, AND 
  MANAGEMENT ACT''; AND H.R. 4751, TO MAKE TECHNICAL CORRECTIONS TO 
 PUBLIC LAW 110-229 TO REFLECT THE RENAMING OF THE BAINBRIDGE ISLAND 
     JAPANESE AMERICAN EXCLUSION MEMORIAL, AND FOR OTHER PURPOSES

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                      SUBCOMMITTEE ON PUBLIC LANDS

                      AND ENVIRONMENTAL REGULATION

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                        Wednesday, July 9, 2014

                               __________

                           Serial No. 113-80

                               __________

       Printed for the use of the Committee on Natural Resources
       
       
       
       
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
       
       
       
       
       


         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
          
          
                              _______________
          
                         U.S. GOVERNMENT PUBLISHING OFFICE
     88-697 PDF                  WASHINGTON : 2015             


_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001        
          
          
      

                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            PETER A. DeFAZIO, OR, Ranking Democratic Member

Don Young, AK                        Eni F. H. Faleomavaega, AS
Louie Gohmert, TX                    Frank Pallone, Jr., NJ
Rob Bishop, UT                       Grace F. Napolitano, CA
Doug Lamborn, CO                     Rush Holt, NJ
Robert J. Wittman, VA                Raul M. Grijalva, AZ
Paul C. Broun, GA                    Madeleine Z. Bordallo, GU
John Fleming, LA                     Jim Costa, CA
Tom McClintock, CA                   Gregorio Kilili Camacho Sablan, 
Glenn Thompson, PA                       CNMI
Cynthia M. Lummis, WY                Niki Tsongas, MA
Dan Benishek, MI                     Pedro R. Pierluisi, PR
Jeff Duncan, SC                      Colleen W. Hanabusa, HI
Scott R. Tipton, CO                  Tony Cardenas, CA
Paul A. Gosar, AZ                    Jared Huffman, CA
Raul R. Labrador, ID                 Raul Ruiz, CA
Steve Southerland, II, FL            Carol Shea-Porter, NH
Bill Flores, TX                      Alan S. Lowenthal, CA
Jon Runyan, NJ                       Joe Garcia, FL
Markwayne Mullin, OK                 Matt Cartwright, PA
Steve Daines, MT                     Katherine M. Clark, MA
Kevin Cramer, ND                     Vacancy
Doug LaMalfa, CA
Jason T. Smith, MO
Vance M. McAllister, LA
Bradley Byrne, AL

                       Todd Young, Chief of Staff
                Lisa Pittman, Chief Legislative Counsel
                 Penny Dodge, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------                                

       SUBCOMMITTEE ON PUBLIC LANDS AND ENVIRONMENTAL REGULATION

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Niki Tsongas, MA
Louie Gohmert, TX                    Rush Holt, NJ
Doug Lamborn, CO                     Madeleine Z. Bordallo, GU
Paul C. Broun, GA                    Gregorio Kilili Camacho Sablan, 
Tom McClintock, CA                       CNMI
Cynthia M. Lummis, WY                Pedro R. Pierluisi, PR
Scott R. Tipton, CO                  Colleen W. Hanabusa, HI
Raul R. Labrador, ID                 Carol Shea-Porter, NH
Steve Daines, MT                     Joe Garcia, FL
Kevin Cramer, ND                     Matt Cartwright, PA
Doug LaMalfa, CA                     Jared Huffman, CA
Jason T. Smith, MO                   Vacancy
Vance M. McAllister, LA              Peter A. DeFazio, OR, ex officio
Doc Hastings, WA, ex officio

                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                    (II)
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, July 9, 2014..........................     1

Statement of Members:
    Kilmer, Hon. Derek, a Representative in Congress from the 
      State of Washington........................................     2
        Prepared statement of....................................     3

Statement of Witnesses:
    Beck, George, Healthy Habitats Coalition, Fort Collins, 
      Colorado...................................................    15
        Prepared statement of....................................    16
    Wagner, Mary, Associate Chief, U.S. Forest Service, 
      Department of Agriculture..................................     9
        Prepared statement of....................................    10
    Williams, Lori, Executive Director, National Invasive Species 
      Council, Department of the Interior........................     4
        Prepared statement of....................................     6

Additional Materials Submitted for the Record:
    National Parks Conservation Association (NPCA), July 8, 2014, 
      Letter submitted for the record in support of H.R. 4751....    52
    Representatives of the powersports industry and off-highway 
      vehicle enthusiasts, July 7, 2014, Letter submitted for the 
      record in support of H.R. 3994.............................    53
                                     

 LEGISLATIVE HEARING ON H.R. 3994, TO IMPROVE THE CONTROL AND 
 MANAGEMENT OF INVASIVE SPECIES THAT THREATEN AND HARM FEDERAL 
 LANDS UNDER THE JURISDICTION OF THE SECRETARY OF AGRICULTURE 
  AND THE SECRETARY OF THE INTERIOR, AND FOR OTHER PURPOSES, 
   ``FEDERAL LANDS INVASIVE SPECIES CONTROL, PREVENTION, AND 
MANAGEMENT ACT''; AND H.R. 4751, TO MAKE TECHNICAL CORRECTIONS 
TO PUBLIC LAW 110-229 TO REFLECT THE RENAMING OF THE BAINBRIDGE 
  ISLAND JAPANESE AMERICAN EXCLUSION MEMORIAL, AND FOR OTHER 
                            PURPOSES

                              ----------                              


                        Wednesday, July 9, 2014

                     U.S. House of Representatives

        Subcommittee on Public Lands and Environmental Regulation

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to notice, at 10:06 a.m., in 
room 1324, Longworth House Office Building, Hon. Rob Bishop 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Bishop, Gohmert, McClintock, 
Lummis, Daines, LaMalfa; Grijalva, Bordallo, and Garcia.
    Mr. Bishop. All right, the hearing will come to order. I 
apologize for being late. Whenever Raul gets here before I do, 
there is something that has really, really gone wrong here.
    The Chair notes the presence of a quorum. The Subcommittee 
on Public Lands is meeting to hear testimony on two bills. 
Under the rules, the opening statements are limited to the 
Chairman and the Ranking Member. However, I ask unanimous 
consent to include any other Members' opening statements in the 
hearing record, if submitted to the clerk by the close of 
business today.
    I also ask unanimous consent that Members that are not on 
the full committee or the subcommittee be allowed to sit at the 
dais and take part in the proceedings.
    [No response.]
    Mr. Bishop. And hearing no objections, we are--or so 
ordered.
    There are two bills we are going to hear. We are actually 
going to hear Mr. Kilmer's bill first. I am going to save any 
kind of comments I have on my bill to a later time. So I will 
yield to Mr. Grijalva.
    If you want to do it the same way, fine. If you want to 
talk now, you want to talk later, we will give you that option, 
as well.
    Mr. Grijalva. Let me, Mr. Chairman, just, if no objection, 
file my extensive comments on your legislation for the record. 
And pleased to see Mr. Kilmer's very necessary reminder of a 
sad legacy in our history. And, with that, yield back.
    Mr. Bishop. OK, thank you. With that, we appreciate those 
who have joined us today. We are going to deal with Mr. 
Kilmer's bill first, which is H.R. 4751, to rename Bainbridge 
Island Japanese American Exclusion Memorial.
    Mr. Kilmer, we welcome you here.
    Mr. Kilmer. Thank you.
    Mr. Bishop. We will recognize you for 5 minutes to discuss 
your legislation.

    STATEMENT OF THE HON. DEREK KILMER, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    Mr. Kilmer. Thank you, Chairman Bishop and Ranking Member 
Grijalva, for providing me the opportunity to testify today in 
support of House Resolution 4751. I thank the other members of 
the subcommittee for being here today.
    And this bill is legislation that will make technical 
corrections to legislation that passed into law in 2008 by the 
110th Congress. The 2008 law included the site now known as the 
Bainbridge Island Japanese American Exclusion Memorial, which 
is located in the district that I represent, as a unit of a 
National Historic Site.
    The memorial was established to recognize that, in the wake 
of the attack on Pearl Harbor, Bainbridge Island was the first 
place in the country where Japanese Americans were forcibly 
removed from their homes in response to concerns about the 
security of U.S. Navy facilities in the Puget Sound, where the 
270 Japanese-Americans were forced to leave their homes, their 
neighbors, their friends, and their community to travel great 
distances in order to be held in internment camps. These 
individuals committed no crime, yet were deprived of their 
rights, simply because of who they were.
    While this is a dark chapter in our Nation's history, we 
have an obligation to ensure that future generations remember 
what took place here, so that these mistakes are not repeated.
    While the Park Service manages three sites related to 
Japanese-American incarceration, the Bainbridge Island Japanese 
American Exclusion Memorial is the only site administered by 
the Park Service that commemorates the forcible removal of 
Japanese-Americans.
    In April of this year, the Bainbridge Island City Council 
and the Bainbridge Island Metropolitan Park and Recreational 
District, which jointly owned the memorial, officially renamed 
it the Bainbridge Island Japanese American Exclusion Memorial. 
In order to eliminate any confusion, and ensure that the 
official name of the site is formally recognized, H.R. 4751 
would update the law to reflect the renaming of the Bainbridge 
Island Japanese American Exclusion Memorial.
    Finally, I would be remiss if I didn't mention that 
Bainbridge Island's Japanese-American community recently lost 
one of their great leaders, Dr. Frank Kitamoto, who dedicated 
much of his life to educating others about the experience of 
Japanese-Americans during World War II. He played an 
instrumental role in advocating for the installation of the 
memorial.
    Thank you, Chairman Bishop and Ranking Member Grijalva, for 
inviting me to speak on behalf of this bill, and I am more than 
happy to stand for any questions, if you have them.

    [The prepared statement of Mr. Kilmer follows:]
   Prepared Statement of the Hon. Derek Kilmer, a Representative in 
  Congress from the State of Washington on H.R. 4751, a bill to make 
technical corrections to Public Law 110-229 to reflect the renaming of 
 the Bainbridge Island Japanese American Memorial to Bainbridge Island 
     Japanese American Exclusion Memorial, and for other purposes.
    Thank you, Chairman Bishop and Ranking Member Grijalva for 
providing me with the opportunity to testify today in support of H.R. 
4751. I thank the other members of the subcommittee for being here 
today.
    H.R. 4751 is legislation that will make technical corrections to 
legislation passed into law in 2008 by the 110th Congress. The 2008 law 
included the site now known as the Bainbridge Island Japanese American 
Exclusion Memorial, which is located in the district that I represent, 
as a unit of the Minidoka National Historic Site.
    The memorial was established to recognize that, in the wake of the 
attack on Pearl Harbor, Bainbridge Island was the first place in the 
country where Japanese Americans were forcibly removed from their 
homes. At that time, given concerns about the security of U.S. Navy 
facilities in the Puget Sound, more than 270 Japanese Americans were 
forced to leave their homes, their neighbors, and their friends to 
travel great distances in order to stay in internment camps. These 
individuals committed no crime, yet were deprived of their rights 
simply because of who they were. While this is a dark chapter in our 
Nation's history, we have an obligation to ensure that future 
generations remember what took place here so that those mistakes are 
not repeated.
    While the Park Service manages three sites related to Japanese 
American incarceration, this is the only memorial administered by the 
Park Service that commemorates the forcible removal of Japanese 
Americans.
    In April of this year, the Bainbridge Island City Council and the 
Bainbridge Island Metropolitan Park and Recreational District, which 
jointly own the memorial, officially renamed it the ``Bainbridge Island 
Japanese American Exclusion Memorial.'' In order to eliminate any 
confusion and ensure that the official name of the site is formally 
recognized, H.R. 4751, would update the law to reflect the renaming of 
the Bainbridge Island Japanese American Exclusion Memorial.
    Finally, I would be remiss if I did not mention that Bainbridge 
Island's Japanese American community recently lost one of their great 
leaders, Dr. Frank Kitamoto, who dedicated much of his life to 
educating others about the experience of Japanese Americans during 
World War II. Dr. Kitamoto played an instrumental role in advocating 
for the installation of the memorial.
    Thank you, Chairman Bishop and Ranking Member Grijalva for inviting 
me to speak on behalf of H.R. 4751.

                                 ______
                                 

    Mr. Bishop. Thank you. I appreciate that.
    I understand from the agencies that you have submitted 
written comments, that you do not have oral comments on this 
bill. Is that correct?
    Ms. Williams. Yes. The Department of the Interior submitted 
a statement in support of the bill, and we don't have further 
comments to support it.
    Mr. Bishop. All right. Then we will turn to the committee 
and see if there are any questions.
    Mr. Grijalva, do you have any questions for this bill?
    [No response.]
    Mr. Bishop. Ms. Bordallo, do you have questions for this 
bill?
    Ms. Bordallo. Yes.
    Mr. Bishop. OK.
    Ms. Bordallo. This is 3994, right?
    Mr. Bishop. No.
    Ms. Bordallo. No?
    Mr. Bishop. 4751.
    Ms. Bordallo. Then I do not have any questions, Mr. Chair.
    Mr. Bishop. We are letting you off too easy here on this 
one. I don't have any questions for you, either.
    Mr. Kilmer. Thank you.
    Mr. Bishop. I think we are all looking forward to 
supporting the bill that you have.
    Mr. Kilmer. Thanks very much. Thank you.
    Mr. Bishop. With that, we appreciate it. You know, if you 
would like to stay with us for the rest of the day, you would 
be welcome to.
    [Laughter.]
    Mr. Bishop. No one has ever taken me up on that offer, 
but----
    Mr. Kilmer. I will join them. Thank you, sir.
    Mr. Bishop. You are new. I thought I could get away with 
that.
    [Laughter.]
    Mr. Bishop. All right, appreciate you with that. With that 
we will turn to the next bill, which is H.R. 3994, dealing with 
invasive species. And this is, once again, where I am pleased 
to be able to introduce this particular bill, as we have a 
unique problem in the United States with invasive species that 
spill over not only on public lands, but they also go on 
private lands and state lands, threatening their status and 
health, as well.
    And we obviously need to do something better. Even though 
we appropriate substantial funds for eradication, the status 
quo simply is not working. And that we also have to be 
realistic that there is not an unlimited supply of where we are 
going to go, it has to be thinking outside the box in some 
particular way.
    And I know you actually put yourself on the record. Is 
there anything you wanted to add, as well, just verbally?
    Mr. Grijalva. No.
    Mr. Bishop. OK. With that, we will turn to the witnesses 
who are up here. I appreciate you coming before us. We will, 
first of all, turn to Lori Williams, who is representing the 
Interior Department. Then we will go over to Ms. Mary Wagner 
from the Forest Service and, finally, Dr. George Beck. And we 
will ask for your testimony in that order. Your written 
testimony is in the record, is already included, and we will 
add any kind of oral testimony. We just ask you to maintain it 
within the 5-minute limits that are in front of you.
    Ms. Williams, we will turn to you first.

   STATEMENT OF LORI WILLIAMS, EXECUTIVE DIRECTOR, NATIONAL 
      INVASIVE SPECIES COUNCIL, DEPARTMENT OF THE INTERIOR

    Ms. Williams. Thank you so much. I am Lori Williams. I am 
Executive Director of the National Invasive Species Council. 
That council provides coordination and planning and policy 
support for the over 13 Federal departments and agencies on 
invasive species issues, and we also support a 30-member, non-
Federal advisory committee, which, at one time, George Beck was 
the chairman of. So, greetings to George, and thank him for all 
his help.
    First, I just want to thank Chairman Bishop and the Ranking 
Member for the opportunity to provide our statement, and for 
the attention you brought to this issue. It is an extremely 
serious issue; it has huge impacts across the landscape. And, 
as you said, invasive species do not discriminate. They go on 
private, public lands and waters. And we are very, very 
appreciative of the attention brought to this challenging 
issue.
    That being said, the Department of the Interior does have 
some concerns about H.R. 3994, as drafted, and I am just going 
to summarize those briefly today and make some major points, 
and I would be glad if my statement, with some more particular 
concerns, will be in the record.
    First, a little bit about the Department, which is actively 
engaged in preventing, controlling, and managing invasive 
species to avoid and minimize significant harm that they cause 
to our Nation's resources, including Federal lands managed by 
the Department's bureau. Every bureau within the Department has 
a responsibility for managing invasive species. Relative to 
this legislation, the Bureau of Indian Affairs supports tribal 
government efforts to control invasive species, the Bureau of 
Land Management, the Bureau of Reclamation, the U.S. Fish and 
Wildlife Service, and the National Park Service all have 
programs focused on managing this problem. So you can see how 
widespread it is throughout our country.
    These bureaus also partner with states, tribes, and the 
private sector to support efforts to prevent and control 
invasive species. By addressing invasive species through 
coordination, partnerships, and collaborative actions, the 
Department works to leverage limited resources to counter the 
impacts of invasive species across the landscape.
    Given the complexity and scope of invasive species impacts, 
the Department supports a comprehensive approach that includes 
prevention, early detection, rapid response, control, 
coordination, research, and restoration. One method just 
doesn't fit all of the various species.
    So, in our view, H.R. 3994 would directly impact all of the 
agencies I just mentioned, and perhaps more within the 
Department, and their programs to deal with invasive species. 
The President's Fiscal Year 2014 budget included an increase of 
about $23 million to support invasive species activities. These 
and other programs were described in more detail in a statement 
submitted by the Department for the subcommittee at your 
oversight hearing on invasive species on May 16, 2013. So I 
won't go into a lot of detail on the programs, and I'll just 
make a few comments about the bill.
    It does appear that H.R. 3994, from our reading, could 
reduce flexibility from Federal program and land managers to 
craft solutions to their site-specific problems. It could also 
require costly and possibly redundant analyses and reports and 
administrative agreements, while at the same time capping the 
administrative funding that could be spent, and would likely 
result in less funding going to prevention, education, and 
research factors that we believe, in addition to control and 
management, are critical to successfully addressing invasive 
species issues.
    For example, a number of provisions in the bill would 
reduce flexibility to address invasive species, both at the 
programmatic level and for Federal land managers. The 5-percent 
net reduction of invasive species, although a worthy goal 
required by Section 3(b), may not accomplish the intended goal 
of reducing the overall harm caused by invasive species, as it 
may preclude agencies from prioritizing actions to address the 
most harmful species, given the limited resources, and those 
new challenges we can't anticipate.
    In addition, Subsection 5(a) focuses on the cost of 
control, rather than the effectiveness of control, protection 
of human health and safety, and protection of native species, 
all of which we believe need to be considered when choosing a 
control method. This may limit options for land managers to 
craft their solutions to invasive species that vary so much by 
site, conditions, and climate.
    Moreover, departmental control programs and projects are 
often carried out already in conjunction with state, tribal, 
and local partners, by focusing solely on cost and net 
reduction, rather than on the overall effectiveness of the 
effort in a region. These provisions could unintentionally 
reduce Federal agency options to find innovative control 
methods and ways to work with our partners.
    So, in summary, as I am running out of time, these are just 
some of the major concerns we have with the way the bill is 
drafted. However, we very much appreciate the attention brought 
to this issue, the oversight hearing that you held, and want to 
continue to focus to work with you to limit and reduce the very 
severe problems caused by invasive species to our resources.
    Thank you.

    [The prepared statement of Ms. Williams follows:]
   Prepared Statement of Lori Williams, Executive Director, National 
          Invasive Species Council, Department of the Interior

   H.R. 3994, ``The Federal Invasive Species Prevention, Control and 
                            Management Act''

    Thank you, Chairman Bishop and Ranking Member Grijalva, for the 
opportunity to provide the Department of the Interior's (Department) 
views on H.R. 3994, The Federal Invasive Species Prevention, Control 
and Management Act, introduced on February 5, 2014. While the 
Department supports the intent of the legislation to improve the 
management and control of invasive species on the lands and waters that 
it manages, as discussed below, we have concerns with the bill as 
introduced.
                              introduction
    The Department of the Interior (Department) is actively engaged 
with preventing, controlling and managing invasive species to avoid and 
minimize the significant harm invasive species cause to our Nation's 
natural resources, including the Federal lands managed by the 
Department's bureaus. Every bureau within the Department has a 
responsibility for managing invasive species. Relative to this 
legislation, the Bureau of Indian Affairs (BIA) supports tribal 
government efforts to control invasive species; the Bureau of Land 
Management (BLM), the Bureau of Reclamation (BOR), the U.S. Fish and 
Wildlife Service (FWS), and the National Park Service (NPS) also have 
programs focused on management of aquatic and terrestrial invasive 
species that infest water systems and lands they manage.
    These bureaus also partner with states, tribes and the private 
sector to support efforts to prevent and control invasive species. By 
addressing invasive species through coordination, partnerships, and 
collaborative actions, the Department works to leverage limited 
resources to counter the impacts of invasive species across the 
landscape. Given the complexity and scope of invasive species impacts, 
the Department supports a comprehensive approach that includes 
prevention, early detection and rapid response, control, coordination, 
research and restoration--as the most effective way to protect our 
lands and waters from invasive species.
    H.R. 3994 would directly impact the invasive species programs of 
the BIA, BLM, BOR, NPS and FWS, and could indirectly affect other 
agencies' invasive species activities. The President's fiscal year 2014 
Budget for the Department included an increase of about $23 million to 
support these high priority programs, which were described in more 
detail in a statement submitted by the Department for the 
subcommittee's oversight hearing on invasive species on May 16, 2013.
                         comments on h.r. 3994
    As indicated at the beginning of this statement, the Department has 
concerns with the legislation. As written, it appears that H.R. 3994 
would reduce the flexibility of Federal program and land managers to 
craft solutions to their site specific problems; require costly and 
redundant analyses, reports and administrative agreements--while 
capping administrative funding; and would likely result in less funding 
going to prevention, education, and research, factors that are critical 
to successfully addressing invasive species issues.
    For example, a number of provisions in the bill would reduce 
flexibility to address invasive species both at the programmatic level 
and for Federal land managers. The 5-percent net reduction of invasive 
species required under Section 3(b) may not accomplish the goal of 
reducing the overall harm caused by invasive species, as it may 
preclude agencies from prioritizing actions to address the most harmful 
species and new challenges. In addition, Subsection 5(a) of the bill 
focuses on the cost of control rather than the effectiveness of 
control, protection of human health and safety, and protection of 
native species. This may limit options available to land managers who 
need to have a full range of treatment options available to control 
invasive species, which will vary by site, conditions and climate.
    Moreover, Departmental control programs and projects are often 
carried out in conjunction with state, tribal, and local partners. By 
focusing solely on cost and net reduction rather than overall 
effectiveness, these provisions could unintentionally reduce Federal 
agency options to find innovative, effective, and collaborative 
solutions to invasive species management. Coordination across 
jurisdictions is critical to invasive species prevention and control.
    As noted above, the bill also requires a number additional plans, 
analyses, reports, and agreements that are unnecessary or redundant, 
while at the same time capping administrative costs. These include a 
comparative economic assessment to be completed for each site specific 
control program, required by section 5(b), which we believe would be 
administratively burdensome; and a memorandum of understanding, 
required by section 6(a), to be developed with each cooperating 
partner. Department land management agencies currently have a number of 
existing cooperative agreements, contracts, or other arrangements with 
their partners that might have to be recreated to meet this 
requirement. The cost and time required to satisfy these provisions 
could delay or disrupt successful ongoing collaborative programs.
    H.R. 3994 would reduce funding for critical invasive species 
prevention, outreach and education, inventory and research programs. As 
written, H.R. 3994 does not appear to account for costs associated with 
documenting the presence and abundance of invasive species (inventory), 
tracing the relative success of treatments, or reporting the results in 
a standardized way so that progress and methods can be tracked and 
evaluated. Section 4 of the legislation would also restrict spending 
for investigations, outreach, and education. Public outreach and 
education have proven to be an effective tool in reducing new 
introductions; and research is needed to develop novel control methods 
or identify unknown impacts of invasive species that may need priority 
attention. The Department also opposes the administrative cost cap as 
it would diminish the effectiveness of invasive species programs. 
Oversight and program management are essential parts of invasive 
species activities and are included as administrative costs of the 
program.
    In addition, by focusing primarily on control and management, the 
bill could also divert funding from addressing harmful invasive species 
that cannot be controlled through on the ground management, but may be 
addressed through pathway interdiction and other means. Research has 
shown that the most cost effective and efficient approach to managing 
invasive species is to prevent their establishment in the first place; 
second, to detect infestations early and respond with rapid response to 
achieve eradication; and then manage infestations through control 
activities. By primarily focusing on control and management, the bill 
may reduce efforts to address species that cannot be managed by on the 
ground control efforts--but may be addressed through pathway 
interdiction or other means, including aquatic species such as zebra 
and quagga mussels and Asian carp. It will also constrain the existing 
ability of land management agencies to adaptively manage invasive 
species control efforts around prevention, research, restoration, and 
partnership goals.
    Finally, the Department is also concerned that the environmental, 
cultural, and other impacts of invasive species control activities 
would not be adequately considered given the bill's broad categorical 
exclusion for many invasive species control efforts from environmental 
analysis under the National Environmental Policy Act (NEPA). The 
Department does not support such an expansive categorical exclusion, 
which would both eliminate an important opportunity for public 
involvement in land management decisions and ignore existing regulatory 
authority to conduct programmatic NEPA reviews. The categorical 
exclusion could also be detrimental to tribal interests if used without 
tribal consultation.
                               conclusion
    The Department appreciates that H.R. 3994 provides additional 
recognition of the importance of controlling invasive species on 
Federal lands managed by its bureaus. However, the Department is 
concerned that the bill is unnecessarily restrictive and could 
unintentionally undermine important invasive species partnerships and 
programs. Mr. Chairman, thank you for the opportunity to testify on 
this legislation. I would be happy to answer any questions.

 Comments on H.R. 4751, a bill to make technical corrections to Public 
 Law 110-229 to reflect the renaming of the Bainbridge Island Japanese 
  American Memorial to Bainbridge Island Japanese American Exclusion 
                    Memorial, and for other purposes
    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on H.R. 4751, to make technical 
corrections to Public Law 110-229 to reflect the renaming of the 
Bainbridge Island Japanese American Memorial to Bainbridge Island 
Japanese American Exclusion Memorial.

    The Department supports enactment of H.R. 4751.

    H.R. 4751 would update the law enacted in 2008 (Section 313 of 
Public Law 110-229) that included the Bainbridge Island Japanese 
American Memorial within the boundary of Minidoka National Historic 
Site. This 8-acre memorial was built on land owned jointly by the city 
of Bainbridge Island and the Bainbridge Island Park and Recreation 
District and is administered by the National Park Service in 
partnership with municipal and non-profit entities. The City Council 
and the Park and Recreation District recently renamed the memorial, 
adding the word ``Exclusion'' to its title. Passage of H.R. 4751 would 
ensure that there is consistency between the official name of the 
memorial and the memorial that the National Park Service is authorized 
to administer under Public Law 110-229. There will be only nominal cost 
associated with this legislation.
    We believe it was appropriate for the local authorities to add the 
word ``Exclusion'' to the memorial's name. Less than 4 months after the 
bombing of Pearl Harbor, the Japanese Americans living on Bainbridge 
Island, due to the island's close proximity to U.S. Navy facilities in 
Puget Sound, were the first 276 people of over 100,000 to be 
``excluded'' under Executive Order 9066. The signs that were posted on 
Bainbridge Island that alerted the Japanese Americans that they had 6 
days' notice to prepare for departure for an unknown length of time 
clearly stated that Bainbridge Island was ``Civilian Exclusion Area No. 
1.'' Ultimately, exclusion orders would forcibly remove Japanese 
Americans from their homes in Alaska, the western halves of Oregon and 
Washington, the entire state of California, and the southern portion of 
Arizona. Nearly two-thirds of those incarcerated were American 
citizens.
    The National Park Service presently manages three other sites that 
interpret Japanese American incarceration: Manzanar National Historic 
Site in California, Minidoka National Historic Site in Idaho (not 
including the Bainbridge Island memorial, in Washington), and the Tule 
Lake unit of World War II Valor in the Pacific National Monument in 
California. These sites were once the physical location of the Japanese 
American incarceration camps. The Bainbridge Island Japanese American 
Exclusion Memorial tells a related, but different, story. Bainbridge 
Island was not an incarceration camp; it was the very first place where 
Japanese Americans were taken from their homes, excluded from the 
mainstream population, and sent to incarceration camps. The Bainbridge 
Island memorial commemorates this history. It is not just a memorial to 
the Japanese Americans who lived on Bainbridge Island, as the original 
name implies; it is a memorial to all Japanese Americans who were 
``excluded'' from the general population during the war, and unjustly 
denied their liberty and property.

    Mr. Chairman, that concludes the Department's testimony on H.R. 
4751.

                                 ______
                                 

    Mr. Bishop. Thank you. All right, Ms. Wagner, we will turn 
to you. We will take her extra--she went over 40 seconds; we 
will take it off of your number.
    [Laughter.]
    Mr. Bishop. From the Forest Service, please, you are 
recognized.

STATEMENT OF MARY WAGNER, ASSOCIATE CHIEF, U.S. FOREST SERVICE, 
                   DEPARTMENT OF AGRICULTURE

    Ms. Wagner. Good morning, Chairman Bishop, Ranking Member 
Grijalva, members of the committee. In reference to the written 
statement, I am just going to offer a few points this morning 
on H.R. 3994, and the importance of invasive species 
management.
    So, first, I want to start with an appreciation for your 
work to craft a bill that addresses this important topic, and 
appreciate the work of the committee to address concerns that 
we have previously identified. I want to applaud your 
recognition that this issue is of great import to the Nation.
    USDA supports the goals and the use of collaborative 
partnerships set out in the Federal Lands Invasive Species 
Control, Prevention, and Management Act. Our written statement 
details the efforts of USDA agencies committed to the 
prevention, detection, control, management, and eradication of 
invasive species, and to restoring the structure and function 
of terrestrial and aquatic systems on all lands.
    We work to provide research, protection, technical, and 
financial assistance, partnerships, and treatment to reduce the 
impacts of invasive species. The Forest Service works 
extensively at local, county, state, tribal, and Federal 
levels, as well as with private stakeholders and non-
governmental organizations to proactively implement invasive 
species management approaches across the broader landscape.
    Through an all-lands approach, the Forest Service provides 
a wide range of technical and financial assistance to help 
manage invasive species. The wide-ranging authorities of the 
Forest Service allow us to work with partners to combat 
invasive species across all lands, public and private. We also 
develop methods, tools, and approaches through which these 
harmful exotic species can be detected, prevented, controlled, 
and eradicated.
    To ensure the continued production of needed goods, 
services, and values from our Nation's terrestrial and aquatic 
systems, the Forest Service takes a strategic approach for 
managing invasive species across all program areas, much the 
same as the Council and Department of the Interior. This 
approach includes four main elements: prevention, detection, 
control and management, and restoration and rehabilitation. 
And, in our experience, all four elements are necessary to 
respond to invasive species.
    We believe USDA's collaborative approach to invasive 
species management enhances our ability to work together by 
building on each other's strengths and authorities, and 
appreciate the bill's language directing a partnership 
approach.
    We are concerned that the categorical exclusion in Section 
5 is overly broad, and could call into question our 
collaborative work with partners and other stakeholders. The 
Forest Service has successfully established categorical 
exclusions under existing authorities recently under 
restoration, and we could support a call for rulemaking to 
establish an appropriate and necessary categorical exclusion 
for invasive species. This would enable us to focus on gaps of 
our current categorical exclusions, and strengthen 
relationships as we do that.
    The 2014 Farm Bill provides for a designation of insect and 
disease treatment areas. And projects, if they meet certain 
criteria, can be categorically excluded from documentation in 
an EA or EIS. And there are also limitations on the use of the 
categorical exclusion in that bill. Perhaps that approach would 
be valuable to assess. So we would welcome, and we are 
interested in working with the subcommittee to address these 
concerns. Thank you.
    [The prepared statement of Ms. Wagner follows:]
    Prepared Statement of Mary Wagner, Associate Chief, U.S. Forest 
                Service, U.S. Department of Agriculture
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to testify before you today on the role of the Forest 
Service in protecting forests and grasslands from invasive species. The 
Forest Service is only one of several agencies of the U.S. Department 
of Agriculture (USDA) committed to the prevention, detection, control, 
management and eradication of invasive species, and to restoring the 
structure and function of affected aquatic and terrestrial ecosystems 
on all lands. As such, the USDA supports the goals and use of 
collaborative partnerships set out in the Federal Lands Invasive 
Species Control, Prevention, and Management Act and looks forward to 
working with the subcommittee to address some concerns.
                               background
    Invasive species are among the most significant environmental and 
economic threats facing our Nation. Aquatic and terrestrial invasive 
plants, pathogens, vertebrates, invertebrates, algae, and fungi have 
become established on millions of acres across North America. These 
infestations are degrading watershed condition and ecosystem 
functionality, reducing forest and rangeland productivity, increasing 
the risk of wildfire and soil erosion, causing declines in recreational 
use and enjoyment, negatively impacting human health and safety, 
threatening native fish and wildlife populations and their associated 
habitats, causing declines in property values, and undermining the 
economy at all levels. Invasive species cause billions of dollars in 
damage each year in the United States. Pimentel et al. (2001) estimated 
damage from invasive species worldwide totaled at more than $1.4 
trillion per year.
    Burgeoning global trade and transportation have facilitated the 
spread of many species among continents well beyond their native range. 
With the number of people living in, enjoying, and using forests, 
grasslands, and water resources continually increasing, the likelihood 
of invasive species spreading through transportation and recreational 
activities is also rising. As a result, many species of invasive 
plants, pathogens, vertebrates, invertebrates, and other harmful exotic 
species have been introduced to our Nation's aquatic and terrestrial 
ecosystems. Many of these have become established within these 
ecosystems.
        responsibilities and capabilities of the forest service
    The Forest Service plays an important role in the Nation's efforts 
to address the threat of invasive species across the landscape through 
our National Forest System, State and Private Forestry, Research and 
Development, and International program areas. In this testimony we will 
explore how individually and collectively these programs work together 
to address invasive species threats.
    With internationally recognized land management and scientific 
expertise, the Forest Service is well suited to address the many 
challenges of invasive species. The Forest Service continues to play an 
important national and international leadership role in advancing the 
understanding of the invasive species problem. The wide ranging 
authorities of the Forest Service allow us to work with partners to 
combat invasive species across all lands, public and private. We also 
develop methods, tools, and approaches, through which these harmful 
exotic species can be detected, prevented, controlled, and eradicated.
    At the national, regional, state and local levels the Forest 
Service works extensively with county, state, tribal, Federal, and 
private stakeholders to proactively implement invasive species 
management activities across the broader landscape. Through an ``all 
lands approach'' the Forest Service provides a wide range of technical 
and financial assistance to help manage invasive species. The Forest 
Service works closely with state forestry agencies to implement State 
Forest Action Plans to protect forest from threats.
    The Forest Service has also been a major financial supporter for 
the establishment of Cooperative Weed Management Areas (CWMAs) and 
Cooperative Invasive Species Management Areas (CISMAs) for nearly two 
decades, under the National Fish and Wildlife Foundation's ``Pulling 
Together Initiative'' grant program. This Federal grant program led to 
the establishment and sustainability of dozens of CWMA and CISMA areas 
across the Nation to expand public and private partnerships against 
invasive species.
    In each region of the country, the Forest Service is also a partner 
in implementing priority invasive species management actions identified 
in state invasive species management plans, supporting the 
implementation of the invasive species components of State Wildlife 
Action Plans, helping to develop local and regional invasive species 
management strategies, and providing local support to prevent the 
spread of invasive species. As an example, the Forest Service plays 
several important roles in implementing the USDA obligations and 
priorities under the national Quagga-Zebra Mussel Action Plan, 
developed through a Federal-State collaboration to prevent and control 
the spread of these high-risk invasive mussels across the United 
States. These partnerships help achieve our agency watershed 
restoration and protection goals.
    The Forest Service also provides interagency leadership and support 
as a member of the Federal Interagency Committee for the Management of 
Noxious and Exotic Weeds, the Aquatic Nuisance Species Task Force, and 
the Federal Interagency Committee for the Management of Invasive 
Terrestrial Animals and Pathogens. In addition, the Forest Service 
serves as an active member of the Invasive Species Committee of the 
Association of Fish and Wildlife Agencies. Through these partnerships 
the Forest Service continues to expand national and state efforts to 
address the invasive species threat.
         forest service invasive species management activities
    As one of the largest Federal land management agencies in the 
country, the Forest Service has the responsibility for the stewardship 
of over 193 million acres of public lands within the National Forest 
System. This vast and nationally significant system extends from Alaska 
to the Caribbean, and includes examples of nearly every type of aquatic 
and terrestrial ecosystem in North America. These lands and waters are 
under tremendous pressures from aquatic and terrestrial invasive 
plants, algae, pathogens, fungi, vertebrates, and invertebrates. 
Effective management of these harmful exotic species which threaten the 
National Forest System and all lands is a critical part of the agency's 
land stewardship responsibility.
    The recognition that national forests and grasslands play a key 
role in the local, regional, and national battle against aquatic and 
terrestrial invasive species is reflected by the annual expansion of 
on-the-ground management efforts to address a wide range of invasive 
species challenges. To accelerate this expansion, a new national 
Invasive Species Management Policy for the National Forest System was 
issued to the field in late 2011. It is viewed as a comprehensive 
national policy for invasive species management in the Federal land 
management sector. The new policy defines and clarifies the 
authorities, scope, roles, and responsibilities associated with 
National Forest System management activities against aquatic and 
terrestrial invasive species. A few examples of the requirements in 
this new policy include:

    <bullet> Requiring that Forests work closely with local 
            communities, including state, local, and tribal interests, 
            to address a variety of invasive species challenges across 
            the landscape.
    <bullet> Increasing program transparency, performance 
            accountability, and management effectiveness against 
            priority aquatic and terrestrial invasive species at all 
            levels.
    <bullet> Requiring the use of invasive species-free materials and 
            products, and the decontamination of vehicles and equipment 
            to reduce the spread of aquatic and terrestrial invasive 
            species to, and from, national forests and grasslands.
    <bullet> Prioritizing prevention, and early detection and rapid 
            response, activities to maximize management efficiency over 
            time.

    Forest Service invasive species management performance is outcome 
driven, with a focus on treating and restoring priority areas to 
improve watershed condition and reduce the long-term impacts of 
invasive species. To achieve this, national forests and grasslands 
typically treat nearly 400,000 acres of priority aquatic and 
terrestrial invasive species infestations annually using an integrated 
management approach. Since 2007, more than 2 million acres of lands and 
waters have been restored to protect against aquatic and terrestrial 
invasive species across National Forest System lands and waters; with 
very high treatment efficacy rates each year.
    The Forest Service's State and Private Forestry programs provide a 
wide range of assistance to states, tribes, and others to better manage 
private and other public natural resources. The Forest Service provides 
technical and financial assistance to state natural resource and 
agricultural agencies, tribal governments, and other Federal land 
management agencies to respond to and manage forest pests that threaten 
the Nation's 851 million acres of rural and urban forests of all 
ownerships. The Urban and Community Forestry program works with 
community partners in the detection, monitoring, containment, and when 
possible, eradication of invasive species and provides funding and 
technical assistance to states to support canopy restoration and 
management.
    We also work closely with sister USDA agencies to coordinate 
prevention and management of invasive species across all lands. USDA 
has the largest Federal role in invasive species management because of 
its responsibility to offer technical assistance to responsible 
agencies who quarantine goods coming into the country; manage more than 
193 million acres of national forests and grasslands; conduct research; 
and provide technical assistance to the private sector and in large 
agricultural pest control projects. The USDA Agricultural Research 
Service (ARS) conducts research in extremely diverse areas involving 
prevention, control and management of invasive species. For example, 
ARS provides research in support of action agencies such as the Animal 
and Plant Health Inspection Service (APHIS), to reduce the rate of 
introduction of invasive species, and to rapidly detect, identify and 
eradicate incipient species.
    APHIS is a multi-faceted agency with a broad mission area that 
includes protecting and promoting U.S. agricultural health, regulating 
certain genetically engineered organisms, administering the Animal 
Welfare Act and carrying out wildlife damage management activities. 
APHIS's mission has expanded over the years to include protection of 
public health and safety as well as natural resources that are 
vulnerable to invasive pests and pathogens.
    The Natural Resources Conservation Service (NRCS) has become a 
conservation leader for all natural resources, ensuring private lands 
are conserved, restored, and more resilient to a changing climate. NRCS 
helps agriculture producers and private landowners tackle invasive 
species problems in four major ways: technical and financial assistance 
to manage invasive species; conservation initiatives that work at a 
landscape scale to address natural resource concerns, including 
invasive species; Conservation Innovation Grants with partner entities 
to support development and implementation of innovative approaches and 
strategies to address invasive species; and Plant Materials Center 
research geared toward invasive plant species management and restoring 
areas where invasive plant species have been removed.
    The Forest Service Forest Health Protection program directs and 
implements measures to prevent, detect, contain, and suppress unwanted 
native and invasive insects, pathogens, and plants affecting trees and 
forests. Since the start of fiscal year 2014, State and Private 
Forestry programs have provided $1.8 million in essential matching 
funds and technical assistance to state governments to combat 
economically significant weed threats to state and private forest 
lands. Since 2000, the Forest Service, working in partnership with 
states and other Federal agencies, has implemented a national Slow the 
Spread (STS) strategy to minimize the rate at which gypsy moth spreads 
into uninfested areas. The STS program has reduced the spread of gypsy 
moth more than 60 percent from the historical level of 13 miles per 
year. In only 12 years, this program has prevented impacts on more than 
100 million acres.
    Forest Health Protection and partners from cooperating states 
conduct an annual collaborative forest pest surveys on over 400 million 
acres of Federal and cooperative forest land. Additionally, we have 
developed a pest Web site (http://foresthealth.fs.usda.gov/portal/Flex/
APE) and the annual report, Major Forest Insect and Disease Conditions 
in the United States (http://www.fs.fed.us/foresthealth/publications/
ConditionsReport_2012.pdf), to track and report on invasive insects and 
diseases affecting our Nation's forests.
    In fiscal year 2013, Forest Service Research and Development 
delivered 193 invasive species tools including the identification of 
key pathways for invasion by new forest pests; best management 
practices for significantly reducing invasive plants spread during 
timber harvesting operations; evaluating the establishment of a 
biological control agent for emerald ash borer (EAB); and a model of 
future pest risk that can be used to make prevention efforts more cost 
effective.
    The Forest Service International Programs also work to protect our 
forests from invasive species damage. For example, the program works 
with Chinese counterparts who have partnered with us to address one of 
the most destructive invasive forest pests, the EAB. The Forest Service 
continues to work with ARS to better understand why the borer is so 
resilient and pervasive. This will help predict and prevent potential 
future outbreaks by related wood boring beetles. With an aim of 
identifying biocontrol mechanisms, a partnership was formed between the 
Forest Service's Northern Research Station, the ARS and counterparts in 
China. With support from International Programs, the team is working to 
find natural enemies of EAB in its native range.
           strategic approach to invasive species management
    To ensure the continued production of needed goods, services, and 
values from our Nation's terrestrial and aquatic ecosystems, the Forest 
Service takes a strategic approach for managing invasive species across 
all program areas. This approach includes prevention, early detection 
and rapid response, control and management, restoration and 
rehabilitation, and technical assistance.
Prevention
    The most effective strategy to protect forests, waterways, and 
grasslands from invasive species is to prevent invasive species 
introduction and establishment. Containing known infestations is also 
important for blocking the spread of invasive species from infested 
lands to surrounding areas. We coordinate with Federal and state 
regulatory agencies to understand pathways for introductions, implement 
quarantine regulations, survey for invasive species, and educate the 
public about invasive pest threats and how to prevent the spread of 
invasive species.
    Forest Service researchers in partnership with APHIS are working 
with industry partners to reduce the introduction of invasives into the 
United States through shipments of wood products and packaging and the 
live plant trade. Additionally, Forest Service scientists and managers 
at the Eastern and Western Threat Centers are working closely with 
domestic and international partners to develop a comprehensive database 
for prediction, prevention, and proactive management of invasive 
plants. A public education campaign developed by the Forest Service in 
partnership with Wildlife Forever recruits hunters, anglers, and 
recreational boaters to help prevent the spread of aquatic invasive 
species such as quagga and zebra mussels and Eurasian milfoil.
Early Detection and Rapid Response
    As a critical second-line of defense against invasive species 
threats, the Forest Service develops and implements efficient survey 
and monitoring tools and technologies to facilitate early detection of 
aquatic and terrestrial invasive species across the landscape, 
including in urban areas, and to rapidly assess their potential impact 
on the environment. Using a coordinated and collaborative approach with 
local, state, tribal, and other Federal partners, the Forest Service is 
then able to respond rapidly to new infestations to eradicate or 
contain those populations before the can spread.
    The Forest Service has supported development of a mapping system 
used nationally by cooperating agencies and weed management 
organizations to document distribution of invasive species, and has 
developed an integrated user interface to efficiently collect and map 
inventory and treatment information for all terrestrial and aquatic 
invasive species across the National Forest System. Additionally, 
Forest Service scientists developed a test capable of detecting the 
fungal pathogen that causes white-nose syndrome (WNS) in bats. The test 
is being used to identify infested caves, so that Forest Service and 
other land managers might selectively restrict access to those caves 
and mines to help slow the spread of WNS.
Control and Management
    The Forest Service directly intervenes to manage populations of 
invasive species that threaten forest and grassland health and 
sustainability. Rapid response following early detection is used to 
eradicate new infestations. If eradication is not feasible, Integrated 
Pest Management (IPM) and adaptive management techniques are 
implemented to help maintain ecosystem function. This includes research 
and management to increase the resilience of threatened ecosystems to 
mitigate the impacts of pests. Using new research tools, and the 
authorities and requirements defined within our new Invasive Species 
Management Policy (Forest Service Manual 2900), the Forest Service 
coordinates closely with external stakeholders to implement effective 
control and management activities on millions of priority areas 
throughout the National Forest System.
    For example, the Jackson and Buffalo Ranger Districts of the 
Bridger-Teton National Forest in Wyoming include the majority of the 
land within the Jackson Hole Weed Management Association, where the 
Forest Service identified approximately 7,000 priority acres for early 
detection and immediate eradication efforts. In total, the Forest 
Service successfully eradicated 15 priority species from those 7,000 
acres. When oak trees started dying in the San Francisco Bay Region, 
the Forest Service Pacific Southwest Research Station developed a 
collaborative research response that helped identify the cause--a water 
mold previously unknown to science. The combined efforts of the Forest 
Service with APHIS and numerous partners via the California Oak 
Mortality Task Force have reduced the human-assisted spread of Sudden 
Oak Death and helped communities in the 14 infested coastal counties in 
California and Oregon deal with the infestation.
Restoration and Rehabilitation
    Restoring landscapes that have been impacted by invasive species or 
associated management activities is necessary for improving ecosystem 
integrity and function and may reduce vulnerability to invasive species 
establishment in the future. Restoring and maintaining the health, 
functions, and productivity of areas affected by invasive species is 
consistent with management guidance on restoring national forests and 
the effective use of native species.
    For example, In order to restore cutthroat trout populations to 
streams, non-native trout are replaced with genetically pure cutthroat 
populations. After a decade of restoration efforts, Cherry Creek, on 
the Gallatin National Forest, now contains the largest genetically pure 
population of this cutthroat trout subspecies in the upper Missouri 
River drainage area. The Forest Service strives to utilize cost-
effective methods; however we note the importance of providing 
discretion to land managers to choose appropriate methods, in full 
consideration of a balance of land management objectives. There may be 
situations in which the lowest cost option for invasive species 
management is not the best option for achieving multiple objectives on 
the landscape.
Technical Assistance
    The U.S. Forest Service has some concerns that we welcome working 
with the subcommittee to address. We are concerned with establishing 
categorical exclusions without input from those most affected by their 
application, and are concerned that the categorical exclusion in 
section 5(c) is overly broad and could call into question our 
collaborative work with partners and other stakeholders. The Forest 
Service has successfully established categorical exclusions under 
existing authorities, such as those focused on restoration, and could 
support a call for a rulemaking to establish any appropriate and 
necessary categorical exclusions for invasive species. This would 
enable us to focus on gaps in current categorical exclusions and 
strengthen our relationships with our partners and other stakeholders.
                               conclusion
    The invasive species issue is considered a high priority by all 
program areas of the U.S. Forest Service. We believe the Forest Service 
collaborative approach to invasive species management enhances our 
ability to work together by building on each other's strengths and 
authorities. In addition, our Forest Service personnel work closely 
with local, county, state, and tribal governments; Cooperative Weed 
Management Areas; Cooperative Invasive Species Management Areas; our 
departmental partners NRCS, ARS and APHIS; and other organizations in 
the public and private sectors to promote a collaborative approach to 
mitigate, manage, and if necessary, adapt to aquatic and terrestrial 
invasive species threats across the landscape.
    I would like to thank the Chairman and subcommittee members for 
your interest in invasive species management, and look forward to 
working with you to refine some aspects of this bill. I welcome any 
questions you may have for me at this time.

                                 ______
                                 

    Mr. Bishop. Thank you. I appreciate it. We will now turn to 
Dr. George Beck from the Healthy Habitats Coalition. I 
understand you are also at Colorado State University. Is that 
correct?
    Dr. Beck. That is correct, sir.
    Mr. Bishop. We will recognize you for 5 minutes, please.

  STATEMENT OF GEORGE BECK, HEALTHY HABITATS COALITION, FORT 
                       COLLINS, COLORADO

    Dr. Beck. Thank you, Chairman Bishop, Ranking Member 
Grijalva, and members of the subcommittee. I again thank you 
for the opportunity to testify before you today. My name is Dr. 
George Beck, I am a professor of weed science at Colorado State 
University. And today I represent the Healthy Habitats 
Coalition, and we are a diverse coalition dedicated to 
improving invasive species management in our country.
    In spite of almost three decades of effort by many 
organizations working to persuade the Federal Government to do 
a better job of controlling and managing invasive species, 
insufficient progress has been made. Zebra and quagga mussels, 
New Zealand mud snails, Burmese pythons, feral hogs, emerald 
ash borers, Asian carp, they are all spreading very rapidly. 
And some invasive species, such as cheatgrass, alter a habitat 
so significantly as to cause a decline in native species, and 
specifically, the greater sage-grouse, to the point of 
potentially being listed as endangered.
    Indeed, impacts caused by invasive species are daunting. 
And the list of invasive species is long, but quite manageable, 
including managing cheatgrass to successfully recover sage-
grouse habitat. Health Habitats Coalition collective experience 
is with invasive weeds, and I will focus on them to show the 
need for substantial improvement, and how H.R. 3994 will 
rectify the situation.
    [Slide]
    The data in this table show the number of infested acres 
treated and restored, and the increase of infested acres for 
six Federal agencies that have responsibility to manage 
invasive species. And these data are from the year 2009. As you 
can see, only 3.2 percent of existing infested acres were 
treated and restored in 2009. And weed scientists indicate and 
agree that invasive species spread at about an average rate of 
12 percent, and this is annual expansion. Next slide, please.
    [Slide]
    Treating, restoring only 3.2 percent of acres annually, 
coupled with the 12 percent increase, indicates that acres 
infested with weeds on Federal land will double by 2017 and 
will surpass 100 million acres by 2018. Next slide.
    [Slide]
    Federal agencies are acquiring about three-and-a-half times 
more acres of invasive weeds annually than they are treating 
and restoring. This plan will never be successful, and will 
continuously produce more and more infested acres, thus 
preventing realization of land management goals and objectives.
    Just as importantly, these ever-expanding acres of invasive 
weeds on federally managed lands will serve as a constant 
source of propagules to disperse to new locations. HAC 
recommends that Federal agencies treat and restore at least 15 
to 17 percent of existing infested acres annually to overcome 
this management deficit. And that would equate, then, to a net 
reduction of 5 percent. Next slide.
    [Slide]
    The data in this table show that within 10 years 19.2 
million acres would be treated and restored using this plan I 
just described, which represents the 39 percent decrease of 
infested acres, as opposed to an over 120 percent increase, 
using their current approach.
    In addition to treating and restoring many more acres 
annually than Federal agencies currently do, they also must be 
more efficient and effective with taxpayer dollars. Next slide.
    [Slide]
    H.R. 3994 will provide the much-needed stimulus for Federal 
agencies to create and implement comprehensive and effective 
invasive management programs to improve invasive species 
management in our country.
    The legislation also creates a fiscal paradigm shift by 
requiring at least 75 percent of existing invasive species 
funds to be spent on the ground to decrease their populations. 
It also limits the administrative expenses to 10 percent or 
less, and allows up to 15 percent of the funds to be spent on 
research and development and educational efforts. This 
outstanding formula will significantly enhance fiscal and 
biological efficiency.
    Prevention is the keystone of invasive species management. 
It is recognized under the definition of managing it, and is 
essential because we must constantly be vigilant of pathways 
for introduction of new invasive species to avoid their 
occurrences in our country. Preventing existing populations of 
invasive organisms in the United States from spreading to new 
locations, however, also is a very powerful and critical 
prevention measure that is often overlooked.
    H.R. 3994 represents the necessary solution to our national 
invasive species problem. This legislation will allow Federal, 
state, and local government land managers, private enterprise, 
and private land owners to work together to achieve continuity 
by implementing a cooperative and borderless solution for this 
insidious problem. The time for action is upon us. We must stop 
kicking this can down the road.
    Chairman Bishop, Ranking Member Grijalva, thank you again 
for the opportunity to testify at today's hearing.
    And I am happy to answer any questions.
    [The prepared statement of Dr. Beck follows:]
   Prepared Statement of Dr. George Beck, Healthy Habitats Coalition,
                         Fort Collins, Colorado
         Professor of Weed Science at Colorado State University
       H.R. 3994, a New Paradigm for Invasive Species Management
    Chairman Bishop, Ranking Member Grijalva, members of the 
subcommittee, thank you for the opportunity to testify before you 
today. My name is Dr. George Beck and I am a professor of weed science 
at Colorado State University. I am appearing before you today 
representing the Healthy Habitats Coalition, a diverse coalition of 
land managers, conservation organizations, private companies, and 
academics such as myself, focused on improving invasive species 
management by all sectors in our country, but especially by Federal 
land management agencies. I would like to take this time to describe 
the problem and how passage and implementation of H.R. 3994 will 
rectify this issue.
Invasive Species Overview and Situation to Date
    Invasive species is an insidious and occasionally sinister economic 
and environmental issue--it is not new. Canada thistle, for example, 
was first declared noxious in the United States in 1795 in Vermont. A 
little overgrazing by one user, in this instance, opened the door for 
invasion of the common area by Canada thistle, which in turn decreased 
everyone else's ability to raise the sustenance needed to survive. It 
was the tragedy of the commons where one person's use of the 
environment influenced the next person's use and invasive species 
continue to plague us in this fashion to this day.
    In the 1980s, many western states public and private land managers 
were highly dissatisfied with how Federal land management agencies were 
managing noxious and invasive weeds. The Intermountain Noxious Weed 
Advisory Council (INWAC) was formed in 1987. INWAC was a grass roots 
organization whose goal was to educate Federal agency decisionmakers 
and Congress about the problems associated with noxious and invasive 
weeds and the need for much enhanced management by Federal agencies in 
particular. In 1990, INWAC helped write and secure passage of Section 
2814 of the Federal Noxious Weed Act, which requires all Federal 
agencies to manage noxious weeds in cooperation with state and local 
governments. Furthermore, the law specifically requires that any 
National Environmental Policy Act (NEPA) assessment that must be 
produced be completed within 1 year and Section 2814 presently remains 
the law of the land. Some Federal agencies have not yet complied with 
Section 2814.
    In 1996, INWAC along with several noted invasive species scientists 
from across the United States met with President Bill Clinton's Science 
Advisors to voice their dissatisfaction with the management of invasive 
species by Federal agencies. The administration at that time disagreed 
but a letter of protest about invasive species management in the United 
States signed by 500 scientists was an outcome of that meeting and 
found its way to the highest administrative offices. As a result, 
Executive Order 13112 was issued by President Clinton in 1999. The 
National Invasive Species Council (NISC) was formed, which was 
comprised of eight of the President's Cabinet Secretaries and co-
chaired by the Secretaries of Agriculture, Commerce, and Interior. E.O. 
13112 created the Invasive Species Advisory Committee (ISAC) which 
along with NISC staff created all the National Invasive Species 
Management Plans over the past 13 years. ISAC also wrote and published 
a guidance paper for all Federal agencies clearly defining what 
constitutes an invasive species--i.e., what is, and just as 
importantly, what is not an invasive species (see Addendum).
    The National Invasive Weed Awareness week in Washington, DC started 
in 2001 and evolved recently into the National Invasive Species 
Awareness Week. The goal was to heighten the awareness about invasive 
species among Federal agency decisionmakers and Members of Congress. We 
were successful and our elected leaders in particular understand that 
invasive species indeed is an insidious issue albeit, a competing 
priority that has fallen short of the action that is clearly needed.
Current status and necessary steps to take:
    In spite of almost three decades of work with the Federal 
Government to control and manage invasive species, little progress has 
been made and what progress that has occurred is grossly insufficient 
on a national scale. A multitude of taxa require our immediate 
management attention; zebra and quagga mussels, New Zealand mudsnails, 
Burmese pythons, feral hogs, emerald ash borers, gypsy moths, Asian 
carp, snakehead fish, and some invasive species such as cheatgrass, 
impact native species like the Greater Sage-grouse causing their 
populations to be imperiled increasing the probability of it being 
listed as endangered! The list of invasive species is daunting but 
manageable. The Healthy Habitat Coalition's collective experience is 
with invasive weeds and we will focus on the continued growth of weed 
species, as examples, and the need for better control and management 
measures on lands and waterways throughout the country. The data in 
Table 1 outline the amount of infested acres, the amount of acres 
treated, and the increase of infested acres for the six major Federal 
agencies who have jurisdiction over invasive species.
   table 1. magnitude of federal agency invasive weed management fy09
[GRAPHIC] [TIFF OMITTED] T8697.001


    .epsThese data clearly show that only 3.2 percent of existing acres 
infested with invasive weeds were treated and restored in 2009. Weed 
scientists indicate that a typical rate of spread for weeds is 12 to 16 
percent annually (Duncan and Clark 2005). Treating and restoring only 
3.2 percent of infested acres annually coupled with a 12 percent 
increase indicates that the FY 2009 infested acres on federally managed 
lands will double by 2017 and will surpass 100 million acres by 2018 
(Table 2). Because the rate of invasive weed spread apparently is not 
recognized or at least accounted for, Federal agencies are acquiring 
3.5 times more acres of invasive weeds annually than they are treating 
and restoring. This is a plan that decidedly will never be successful 
and will continuously produce more and more infested acres thus, 
preventing realization of land management goals and objectives. Just as 
importantly, these ever-expanding acres of invasive weeds on federally 
managed lands will serve as a constant source of propagules to disperse 
to neighboring lands and those distant to the infested site--this 
includes continued expansion of cheatgrass, which could lead to listing 
the Greater Sage-grouse as endangered! HHC recommends that Federal 
agencies treat and restore at least 15 percent of their infested acres 
annually to successfully decrease acres of invasive weeds on lands they 
manage on behalf of the American public. Additionally, our Nation must 
create a borderless collaboration among Federal agencies, states and 
their land management agencies, and private land owners and land 
managers for invasive species management. Invasive species do not 
recognize political borders and we must overcome the barriers that 
prevent borderless collaboration to be successful.
table 2. performance assessment of invasive weed management by federal 
                     agencies over a 10-year period
                     
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                 



 Solution to Federal Agency Performance Managing Invasive Weeds

    Federal agencies must treat and restore at least 15 percent of 
existing infested acres in any given year to overcome their management 
deficit (Table 3). Table 3 is similar to Table 2 but is based upon 
treating and restoring 15 percent of infested acres annually. Within 10 
years, 19.2 million acres would be treated and restored, which 
represents a 39 percent decrease of acres infested with invasive weeds 
on federally managed lands as opposed to their current thrust where 
over 100 million new acres would be infested (Table 2) over the same 
time period! In addition to treating and restoring many more acres 
annually than Federal agencies currently do, they also must be more 
efficient and effective with taxpayer dollars. A paper addressing this 
issue is included in the addendum.
 table 3. a positive outcome if federal agencies treat and restore at 
    least 15 percent of acres infested with invasive weeds annually


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Invasive Species Management by Federal Agencies

    It is abundantly clear that the management by Federal agencies for 
invasive species is not sufficient to slow the growing problem. The 
very nature of invasive species is to increase their populations in 
their new home seemingly without bounds until habitats are saturated 
(Figure 3) thus; current invasive species management by agencies is 
grossly insufficient.
     figure 3. typical population growth curve for invasive species
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    


H.R. 3994
    H.R. 3994, Federal Lands Invasive Species Control, Prevention, and 
Management Act, will provide the much needed stimulus for Federal 
agencies to create and implement comprehensive and effective invasive 
species management programs that will launch an era of cooperation and 
collaboration by private and public entities to improve invasive 
species management in our country. H.R. 3994 requires the Secretaries 
of Agriculture and Interior to create and adequately fund invasive 
species management programs for the land management agencies under 
their direction. While H.R. 3994 focuses on USDA and USDI land 
management agencies, it clearly states that the bill does not usurp 
invasive species management efforts by other Federal departments and 
agencies. Fiscal accountability is of paramount importance and the bill 
further requires that at least 75 percent of the developed invasive 
species budgets be spent on-the-ground to decrease their populations 
while up 15 percent can be spent on education, awareness, and research, 
and up to 10 percent can be spent on administration. This is an 
outstanding formula that will significantly enhance fiscal and 
biological efficiency. Prevention is the foundation for invasive 
species management and H.R. 3994 emphasizes this essential management 
component. Pathways of introduction for invasive species must be 
managed but preventing existing populations of invasive organisms in 
the United States from spreading to new locations also is a very 
powerful and critical prevention measure.
    Many university professors with extension appointments have spent 
considerable time over the past 25 years educating and training the 
Federal land management workforce about invasive species and their 
management. To be sure, there are some shinning lights within the 
Federal system with regard to invasive species management. For example, 
The U.S. Fish and Wildlife Service spent about 42 percent of their FY09 
``invasive species budget'' to control and manage invasive species and 
the National Park Service spent 100 percent of their FY09 ``invasive 
species budget'' on control and management, and the majority of these 
monies were spent on invasive weeds. So it is clear that if an agency 
or department desires to manage all taxa associated with this insidious 
problem, they can do so! Furthermore, if those agencies with land 
holdings in the western United States associated with Greater Sage-
grouse habitat would effectively manage cheatgrass, habitat recovery 
for the bird likely would ensue thus, aiding bird populations and 
avoiding the draconian land use changes that would be associated with 
endangerment status. We possess the knowledge to succeed but we must 
summons the will to do so and H.R. 3994 provides the means to be 
successful!
    Chairman Bishop, Ranking Member Grijalva, thank you again for the 
opportunity to testify at today's hearing and present the facts related 
to invasive species. I am happy to answer any questions.
                                ADDENDUM

 fy09 national invasive species council invasive species expenditures 
                              compilation

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  Economics of Invasive Weed Control: Chemical, Manual/Physical/fire, 
                       Biological, Doing Nothing
  K. George Beck, Professor of Weed Science, Colorado State University
FY09 NISC budget:
    The National Invasive Species Council staff assembled an annual 
``invasive species budget'' by collecting data from Federal agencies 
and placing that information into one of seven categories that are 
associated with the National Invasive Species Management Plan. In FY09, 
the Federal Government spent $1.563 billion (Figure 1) on invasive 
species stating that $642 million was spent on control and management, 
which is one of the NISC budget categories. HHC members have years of 
experience helping to design weed management strategies and systems and 
our calculations differ substantially from the Federal data. From Table 
1, Federal agencies indicate they treated and restored 1,603,805 acres 
infested with invasive weeds in FY09. Our calculations suggest the 
following when Early Detect and Rapid Response (EDRR) is budgeted at 
$1,000/acre, restoration at $300/acre, and control with a herbicide at 
$100/acre:

    $291,000,000 spent on EDRR  $1,000/acre = 291,000 acres EDRR 
treated;

    $50,520,000 spent on restoration  $300/acre = 168,400 acres 
restored;

    1,603,805 acres ^ 291,000 EDRR treated-acres ^ 168,400 acres 
restored = 1,143,505 acres remaining for direct weed control. 
Calculating at $100/acre to control invasive weeds with a herbicide 
equates to $114,350,500 spent by Federal agencies to decrease their 
population abundance, which is the first logical step in any weed 
management system. Based on HHC calculations, far less appears to have 
been spent on control and management than the data stated by the 
Federal agencies (Figure 2).
              figure 1. nisc fy09 invasive species budget

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 figure 2. hhc's recalculated nisc budget impacts based on average 
                             cost analysis

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    APHIS projects to control invasive insects and taxa other than 
invasive weeds comprise about two-thirds of the control and management 
budget categories. There remains about $305 million that cannot be 
readily placed into one of the NISC budget categories and it is highly 
likely that Federal agencies are spending more per acre to control 
invasive weeds than is necessary because they are not using the most 
cost-efficient tools and high labor expenses.
Financial Costs/Acre and Impacts to Budgets
    Regardless of whether working for private enterprise or government, 
land management personnel must stretch limited budgets yet be effective 
simultaneously. Labor most often is the most expensive portion of any 
weed management project. It is incumbent upon land managers to use 
methods that minimize labor costs and this is especially so with public 
land managers because they are dependent upon tax dollars to execute 
their programs.
    Using herbicides or biological control agents to decrease the 
population abundance of a target invasive weed represent those 
approaches that utilize the least labor to effect initial/continued 
reduction of targets species. Biocontrol is developed with public funds 
and this is the primary reason that it seems inexpensive to the end 
user, including Federal agencies. Biocontrol is a very attractive and 
highly useful approach to control invasive weed species but success has 
been inconsistent in space and time. There are numerous successful 
biocontrol endeavors and the literature has many examples. The Fire 
Effects Information System Web site managed by USDA-Forest Service is 
one of the best and most complete information sources for the biology 
and management of many invasive weed species (http://www.fs.fed.us/
database/feis/). Another outstanding source of information on managing 
invasive weeds recently became available--Weed Control in Natural Areas 
in the Western United States by Joseph DiTomaso et al. (2013). It too 
describes where and upon what species biocontrol has been successful 
and extensively outlines all management options. If biocontrol is the 
method of choice, land managers must carefully research choices for 
their effectiveness. The spatial and temporal variation associated with 
biocontrol performance can be due to many genetic and environmental 
reasons from habitat preference by the biocontrol agent to the 
production of new genotypes from previously geographically separated 
genotypes now growing in proximity to one another, and many as yet to 
be discovered reasons.
    Fire too can be a good tool to decrease populations (DiTomaso et 
al. 2006) of some invasive weeds, most notably annual grasses and forbs 
such as cheatgrass (Bromus tectorum) or medusahead (Taeniatherum caput-
medusae) and yellow starthistle (Centaurea solstitialis). As with other 
integrated management systems for weeds, use of fire to manage invasive 
weeds must be integrated with other tools such as seeding to provide 
competition to ward off recovering weed species and allow completion of 
land management goals and objectives. Burning mixed brush-cheatgrass 
stands destroys some to many weed seeds and allows for about one season 
to establish desirable vegetation before cheatgrass re-establishes and 
dominates the site again (Evans and Young 1978; Young and Evans 1978; 
Young 2000). Establishing competitive perennial grass species may 
successfully keep cheatgrass from re-establishing. If, however, the 
system is left alone after burning, cheatgrass or medusahead will re-
invade. Burning stands of yellow starthistle also will provide 
excellent population control if combined with herbicide treatment and 
seeding (DiTomaso et al. 2006b). Burning stands of perennial weeds such 
as Canada thistle, leafy spurge, Russian and other knapweeds, or 
tamarisk rarely is effective because of the plants' capability to re-
grow from its root system and dominate a site again. These and other 
similar invasive weeds may recover soon enough after a prescribed burn 
to preclude establishment of seeded species. If fire is used to control 
perennial forbs or grasses, herbicides likely will have to be 
integrated into the management system to allow sufficient suppression 
of the target weed for a long enough time to give seeded species the 
opportunity to establish.
    Of all the methods used to decrease weed population abundance, 
herbicides are the most researched and arguably the best understood. In 
the course of their development, consistent spatial and temporal 
performance is an extremely important consideration for a product to 
reach the consumer. Because of known performance developed from 
extensive research and the decreased labor associated with their use, 
herbicides often represent the most cost-effective means to use 
taxpayer dollars to decrease invasive weed populations so land 
restoration or rehabilitation may proceed.
    The decision to do nothing seems inexpensive and harmless on the 
surface but nothing could be farther from reality. The problem with 
invasive species is their populations always seem to expand and cause 
harm, albeit, a species can be problematic in one location or setting 
and not another (Beck et al. 2008). Most invasive species and certainly 
invasive weed populations develop in a sigmoid curve pattern and after 
a lag time following introduction, their populations increase 
exponentially until site saturation when their populations are limited 
by resource availability (Figure 1).
                                figure 1

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The problem is one never knows where on the curve the 
population at any given population lies. Even with cheatgrass, the 
invaded location/site might be new and at the bottom of the curve when 
population control is most easily obtained or it could be at beginning 
of the exponential phase but it is difficult at best to make such a 
determination. The best response is to NEVER DO NOTHING because doing 
nothing can be the most expensive decision one can make due to the 
subsequent population growth by the invasive weed and the resulting 
havoc it wreaks upon the native plant community and the animals it 
supports! Doing nothing simply yields the site to the invasive species.
Importance of Prevention, Early Detection and Rapid Response/
        Eradication
    Prevention often is thought of as the most powerful form of weed 
management and indeed, the least expensive weed to control is the one 
that is not present--however, prevention is not free. The perception 
that prevention is simply steps taken to keep stuff out that currently 
does not exist in a particular location is accurate for certain and 
possibly represents the greatest cost savings to taxpayers. Cleaning 
equipment between uses and locations seems a logical prevention 
approach along with using certified weed seed-free hay, forage, mulch 
or gravel, and careful screening of ornamental and agricultural 
introductions can be of tremendous benefit in the battle against 
invasive species. Prevention, however, can be expensive when it 
arbitrarily impedes trade and benefit: risk assessment is an important 
if not an essential component to screening programs so decisions that 
impact trade are transparent, logical, and acceptable.
    Prevention also means decreasing population abundance of existing 
weed infestations so they are not a source for new ones to develop some 
distance--close or far--from the infested site. It is quite appropriate 
to think of extending prevention as a management strategy to efforts 
that decrease target populations in an infestation that is part of a 
project area. In fact, this may be the best ``first light'' under which 
to examine prevention efforts; i.e., how to keep current infestations 
from serving as sources for others. The silo or stovepipe approach to 
any weed management project is dangerous and invasive species 
management always should be thought of as a continuum among the 
strategies and methods used to manage such species. All this must be 
kept in mind because prevention and EDRR are the first lines of defense 
against invasive species.
Economics and Pest Expansion Models Can Help Set Program Priorities
    Almost every person recognizes that it is much simpler to pull a 
single, newly found noxious weed than let it go and try to eradicate 
the large infestation that undoubtedly will occur over time. It is 
puzzling then that people tend to wait because ``that weed is not 
causing me a problem . . . now'' knowing well that it inevitably will 
do so. The sooner an incipient patch of an invasive weed is controlled, 
regardless of proximity to the source, the less expensive it is to 
control, the greater the success will be, and most likely one will have 
eradicated a new or small, dispersed population. Data in Table 1 shows 
the increasing control cost associated with waiting in a hypothetical 
example of a newly found patch of spotted knapweed. The data also 
compare the decision to control manually v using an herbicide and both 
include seeding costs.
  table 1. cost comparison of controlling spotted or diffuse knapweed 
    physically or chemically, demonstrating the importance of early 
                      detection and rapid response

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    These data clearly show that the decision to wait to respond to 
a new weed infestation can be very costly. Regardless of the method, 
the cost of management increases several thousand times but the cost of 
manual control exceeds the cost of using an herbicide by 800 to 1,500 
percent! This example shows the value of monitoring to find incipient 
invasive weed populations so they can be effectively controlled or 
eradiated at a fraction of the expense compared to waiting for impact 
and havoc to occur. These data also show the dramatic fiscal savings 
associated with using a herbicide compared to hand pulling or similar 
manual methods of control. The decisions to act quickly when new or 
small infestations are found and to use a herbicide to affect target 
weed population decrease represent efficient and responsible use of 
taxpayer dollars and the stretching of limited budgets.
    While this example is hypothetical, Tables 2 and 3 present data 
comparing the costs (late 90s) associated with different methods to 
decrease target weed populations on Colorado and Montana rangeland. 
Diffuse knapweed (Centaurea diffusa) was targeted in Colorado where 
hand pulling twice annually was compared to mowing three times 
annually, to mowing twice followed by herbicide in fall, to herbicide 
application alone. Control of diffuse knapweed rosettes and bolted 
plants was best 1 year after treatments were exerted where a herbicide 
was used alone or in combination with mowing compared to mowing alone 
or hand pulling. Herbicides alone were about 1 percent of the total 
cost of hand pulling and the latter was completely ineffective.
  table 2. cost of different control methods for diffuse knapweed on 
colorado rangeland in 1997 and subsequent control 1 year after original 
           treatments were applied (sebastian and beck 1999)

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The second experiment (Table 3) was conducted in Montana on 
spotted knapweed and was similar to the Colorado experiment except 
biocontrol also was evaluated and the treatments were exerted for 2 
years and data collected shortly (1 to 2 months) thereafter. Hand 
pulling kept 100 percent of plants from going to seed (bolted plants 
were targeted for pulling), but controlled only about one-half of 
spotted knapweed plants. Herbicides alone kept 93 to 100 percent of 
plants from going to seed and controlled 79 to 100 percent of spotted 
knapweed plants. Mowing in combination with herbicides or hand pulling 
combined with herbicide use produced similar results to herbicides 
alone. Biocontrol was ineffective but insufficient time had passed to 
allow their successful establishment much less spotted knapweed 
population decrease. As with the Colorado study, the use of herbicides 
alone was less than 1 percent of the cost associated with hand pulling 
and controlled almost twice as much knapweed.
    Both of these experiments show the strong monetary and weed control 
advantages associated with using herbicides to decrease target weed 
populations. All government land managers, regardless of the level of 
government, must demonstrate fiscal responsibility to taxpayers and 
that not only translates into total dollars spent but also what benefit 
or return was realized from the expenditures.
 table 3. cost of different control methods invoked for 2 consecutive 
  years for spotted knapweed in montana and subsequent control 1 year 
  after initial treatments applied and 1 month after final treatments 
                          (brown et al. 1999)

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 Control Risks vs. Harm Caused by Invasive Weeds
    Duncan and Clark (2005) cite numerous examples of the environmental 
and economic impacts caused by invasive weeds. Pimentel et al. (2005) 
calculated that invasive species impact the U.S. economy by more than 
$120 billion annually and $36 billion of this was caused by invasive 
weeds. The problems associated with invasive weeds are very clear and 
very expensive. The harm, real or potential, from invasive species is 
always a much greater risk than the tools used to control any invasive 
taxa but especially invasive weeds. If this was not the case, the 
species in question would not be considered invasive. Invasive species 
alter evolved relationships among organisms that share a habitat or 
ecosystem, which is highly significant biologically, ecologically, and 
economically!
    Herbicides are the most efficacious, most economical, and most 
consistent means of decreasing the population abundance of invasive 
weeds. A common theme is readily apparent when attempting to recover an 
infested habitat; i.e., a land manager must first decrease the 
population of the invasive weed before beginning any seeding operation 
or the latter effort will fail. Other site characteristics also may be 
in need of attention to fully realize restoration and these too should 
be addressed before expecting establishment of seeded species. Many of 
these characteristics could be very expensive to repair and thus, all 
the more reason to use the most economically viable tool to decrease 
invasive weed populations to use taxpayer dollars to the greatest 
extent possible.
    One serious concern about using herbicides to decrease target 
invasive weed populations is their effect on native plants, especially 
native forbs and shrubs. Many people believe that using an herbicide 
that will control invasive weedy forbs will strongly select for grasses 
and eliminate native forbs and shrubs, which are essential components 
of any native plant community. This is in fact not the case and the 
weed research community is developing databases to define the injury to 
native grasses, forbs, and shrubs caused by herbicides used to control 
invasive weeds. Erickson et al. (2006) sprayed Paramount (quinclorac) 
or Plateau (imazapic) directly onto the western fringed prairie orchid 
(Platanthera praeclara) in fall when it was senescing to mimic when 
these herbicides would be used to control leafy spurge (Euphorbia 
esula) and data were collected on orchid survival and fecundity 10 and 
22 months after treatments (MAT) were applied. Neither herbicide 
influenced orchid survival. Plateau decreased orchid height by 43 
percent at 10 MAT but this effect was no longer apparent at 22 MAT. 
Plateau also decreased raceme length by 58 percent and flower number by 
70 percent 22 MAT. Quinclorac, however, had no such effects on the 
orchid and the researchers concluded that it was safe to use Paramount 
to control leafy spurge in the presence of the western fringed prairie 
orchid and while Plateau caused temporary stunting and decreased 
fecundity of the orchid, most of these symptoms disappeared the second 
year following treatment.
    Rice et al. (1997) studied the effects of plant growth regulator 
herbicides (picloram, clopyralid, and clopyralid + 2,4-D) on native 
grasses, forbs, and shrubs applied to control spotted knapweed 
(Centaurea maculosa; C. stoebe) in Montana over an 8-year period at 
four sites. Herbicides were applied once in either spring or fall to 
control spotted knapweed in 1989 and re-treated again in 1992 to 
control the recovering invasive weed. Plant community data were 
collected annually over the 8-year period and compared back to the 
floristic composition of each study site determined before initiation 
of the experiments. Herbicides controlled spotted knapweed very well 
(98-99 percent control) and shifted the plant community to dominance by 
grasses but the depression on plant community diversity was small and 
transient. By the end of the third year after initial treatment, there 
were no differences in species diversity among treatments and some 
herbicide-treated plots began to surpass untreated plots in plant 
community diversity measurements. They also found that late-season 
herbicide application after forbs had entered summer-drought induced 
dormancy minimized the impact on plant community diversity. The effects 
of the pyridine herbicides (picloram and clopyralid) on the native 
plant community diversity were small and temporary and minimal compared 
to the reported impacts caused by spotted knapweed on the plant 
community (Tyser and Key 1988; Tyser 1992).
    University researchers worked with Dow AgroSciences to test a new 
pyridine herbicide, Milestone (aminopyralid), effects on native 
grasses, forbs and shrubs (http://techlinenews.com/
ForbShrubTolerancetoMilestone.pdf) at 14 locations throughout the 
western United States. Individual tolerance rankings were established 
for 90 native forb and 19 native shrub species to Milestone applied at 
5 or 7 fl oz/acre in spring, late summer, or fall. Of the 90 forb 
species studied in this experiment, 23, 14, 19, and 34 were ranked as 
susceptible (more than 75 percent stand reduction), moderately 
susceptible (51-75 percent stand reduction), moderately tolerant (15-50 
percent stand reduction), and tolerant (less than 15 percent stand 
reduction) 1 year following application, respectively. Many of these 
forbs recovered by the end of the second year following application and 
only 19 of the 90 forbs were ranked either as moderately susceptible or 
susceptible at that time. Interestingly, shrubs generally were more 
tolerant of Milestone than were forbs. Of the 19 shrubs in the study, 
74 percent were ranked as moderately tolerant or tolerant 2 years after 
herbicides were applied and Rosaceae shrubs were generally the most 
susceptible species. These data also demonstrate the transitory nature 
of injury to native forbs and shrubs caused by herbicides used to 
decrease the populations of invasive weeds.
    Recently, weed scientists at Colorado State University finished an 
oil site reclamation project in western Colorado to decrease cheatgrass 
population abundance and recover the habitat for wildlife. Cheatgrass 
presence on western rangelands increases fire frequency and intensity 
and wildfires dramatically alter Greater Sage-grouse habitat. 
Cheatgrass populations in the study were decreased in fall, 2010 with 
one of five different herbicides then native perennial grasses and 
forbs were sown in 2010 shortly after herbicide application or 1 year 
later in 2011. When data were analyzed in 2012, density of seeded 
grasses was dependent upon the herbicide used to control cheatgrass in 
2010 and the year that seeding was done (Table 4).
 table 4. density of seeded grass species was dependent upon herbicide 
  used in 2010 to control cheatgrass and year of seeding <SUP>1</SUP>

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Journey (imazapic + glyphosate), Landmark (chlorsulfuron + 
metsulfuron), Matrix (rimsulfuron) controlled 87 to 100 percent of 
cheatgrass 1 and 2 years after application and seeded species 
established best where these herbicides were used because they 
effectively decreased cheatgrass populations. Our data show that 
several native grasses established well when sown into herbicide soil 
residues. Native forbs also emerged through herbicide residues but did 
not establish as well as grasses (Table 5).
table 5. forb species density in 2012 was dependent upon the herbicide 
used to control cheatgrass in 2010 and the year of seeding <SUP>1</SUP>

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




     Our data clearly show that herbicides can be used to decrease 
cheatgrass populations and such areas can be recovered to native plant 
species. Different herbicides will favor the establishment of different 
native plant species and this selection pressure is not limited to 
favoring only perennial grasses--forbs too are differentially favored. 
Our data also strongly suggest that public and private land managers 
with cheatgrass infestations can effectively manage such sites and 
recover them for native species, including the Greater Sage-grouse--
they just need the will and stimulus to do so.
                            literature cited
    Beck, K. George, Kenneth Zimmerman, Jeffrey D. Schardt, Jeffrey 
Stone, Ronald, R. Lukens, Sarah Reichard, John Randall, Allegra A. 
Cangelosi, and John Peter Thompson. 2008. Invasive Species Defined in a 
Policy Context: Recommendations from the Federal Invasive Species 
Advisory Committee. Invasive Plant Science and Management 1:414-421.
    Brown, Melissa L., Celestine A. Duncan, and Mary B. Halstvedt. 
1999. Spotted knapweed management with integrated methods. Proc. Wes. 
Soc. Weed Sci. 52:68-70.
    DiTomaso, J. M., G. B. Kyser, J. R. Miller, S. Garcia, R. F. Smith, 
G. Nader, J. M. Connor, and S. B. Orloff. 2006b. Integrating prescribed 
burning and clopyralid for the management of yellow starthistle 
(Centaurea solstitialis). Weed Sci. 54:757-767.
    DiTomaso, Joseph M., Matthew L. Brooks, Edith B. Allen, Ralph 
Minnich, Peter M. Rice, and Guy B. Kyser. 2006. Control of invasive 
weeds with prescribed burning. Weed Technol. 20:535-548.
    DiTomaso, J.M., G.B. Kyser, S.R. Oneto, R.G. Wilson, S.B. Orloff, 
L.W. Anderson, S.D. Wright, J.A. Roncoroni, T.L. Miller, T.S. Prather, 
C. Ransom, K.G. Beck, C. Duncan, K. A. Wilson, and J.J. Mann. 2013. 
Weed Control in Natural Areas in the Western United States. Weed 
Research and Information Center, University of California. 544 pp. IBSN 
978-0-692-01922-1.
    Duncan, Celestine L. and Janet K. Clark, eds. Invasive Plants of 
Range and Wildlands and Their Environmental, Economic, and Societal 
Impacts. 2005. Weed Science Society of America, Lawrence, KS. 222 pp.
    Erickson, Ann M., Rodney G. Lym, and Don Kirby. 2006. Effect of 
herbicides for leafy spurge control on the Western Prairie Fringed 
Orchid. Rangeland Ecol. Manage. 59:462-467.
    Evans, Raymond A. and James A. Young. 1978. Effectiveness of 
rehabilitation practices following wildfire in a degraded big 
sagebrush-downy brome community. Journal of Range Management. 
31(3):185-188.
    Pimental, David, Rodolfo Zuniga, and Doug Morrison. 2005. Update on 
the environmental and economic costs associated with alien-invasive 
species in the United States. Ecol. Econ. 52:273-288.

    http://techlinenews.com/ForbShrubTolerancetoMilestone.pdf.

    Rice, Peter M., J. Christopher Toney, Donald J. Bedunah, and 
Clinton E. Carlson. 1997. Plant community diversity and growth form 
response to herbicide applications for control of Centaurea maculosa. 
J. App. Ecol. 34:1397-1412.
    Sebastian, James R. and K. George Beck. 1999. The influence of 
various control methods on diffuse knapweed on Colorado rangeland. 
Proc. Wes. Soc. Weed Sci. 52:41-43.
    Sebastian, James R., K. George Beck, Scott Nissen, Derek Sebastian, 
and Sam Rodgers. 2011. Native species establishment on Russian knapweed 
infested rangeland following pre-plant herbicide applications. Proc. 
Wes. Soc. Weed Sci. 64:16-17.
    Sebastian, James R., George Beck, and Derek Sebastian. 2012. Using 
aminocyclopyrachlor to control Dalmatian toadflax and promote native 
plant community recovery and diversity. Proc. Wes. Soc. Weed Sci. 
65:51-52.
    Tyser, R.W. 1992. Vegetation associated with two alien plant 
species in a fescue grassland in Glacier National Park, Montana. Great 
Basin Naturalist 52:189-193.
    Tyser, R.W. and C.W. Key. 1988. Spotted knapweed in natural area 
fescue grasslands: an ecological assessment. Northwest Science 62:151-
160.
    Young, James A.; Evans, Raymond A. 1978. Population dynamics after 
wildfires in sagebrush grasslands. Journal of Range Management. 
31(4):283-289.
    Young, Jim. 2000. Bromus tectorum L. In: Bossard, Carla C.; 
Randall, John M.; Hoshovsky, Marc C., eds. Invasive plants of 
California's wildlands. Berkeley, CA: University of California Press: 
76-80.

                                 ______
                                 

    Mr. Bishop. Thank you. I appreciate all of you joining us 
today. We will now open up for questions. Mr. Grijalva, do you 
have any?
    Mr. Grijalva. Yes, thank you. Ms. Williams, I think you 
mentioned Section 4 of the legislation that places restrictions 
on the level of public outreach and education. Explain to us 
why this component is important in combating the issue of 
invasive species.
    Ms. Williams. Right, thank you. One of the things you hear, 
outreach and education. There are several kinds of outreach and 
education, and one really important kind of outreach is to help 
educate the public on what behaviors cause the spread of 
invasive species.
    For instance, one of the major pathways of the spread of 
the quagga and zebra mussels across the West that Dr. Beck 
mentioned is the movement of recreational boats. It is very 
important to fund that education effort. There is no way to 
regulate every single boat. So a lot of it is public education. 
So that is an example of where education is more than education 
in this instance; it is really a pathway interdiction, which is 
the key to--one of the keys to prevention.
    Mr. Grijalva. Thank you. Following up on that, Chief 
Wagner, buffalo grass is a huge problem in the district I 
represent in southern Arizona. It impacts the Coronado National 
Forest, the Ironwood Forest and National Monument, and the 
Saguaro National Park. It takes a lot of time. I think it's a 
3-year effort to--of intensive manual labor to get rid of about 
25 square miles in the Oregon Pike.
    Following up on the question about the public interaction, 
and it continues to be a huge threat both to public and private 
lands in the region. How does your agency work with local 
communities, and is this restriction I just asked about in the 
question hinder the ability to bring its community effort on to 
something like this?
    Ms. Williams. So the Forest Service established national 
policy direction for invasive species management. And it 
suggests and directs, at the local level, the state level, the 
regional level, and the national level, a really collaborative 
approach, and working with others to address this problem.
    We have had a long tenure and financial support for 
cooperative weed management areas, or cooperative invasive 
species management areas. And that is local, state, and Federal 
partners all working locally together to address the species 
that are impacting lands of interest, and pooling resources and 
delivering the education, the prevention, the eradication, the 
treatment, and control, all together, in many cases.
    Mr. Grijalva. What would--that effort you described, and 
the example that uses the buffalo grass, how would this 
legislation affect that?
    Ms. Williams. The legislation just codifies and requires 
that partnership approach in every way we address invasive 
species. So I think it affirms and backs and supports many of 
the local efforts that have generated some of the successes 
that you have talked to.
    Mr. Grijalva. Dr. Beck, one question. You are testifying on 
behalf of the Healthy Habitats Coalition today. And the DuPont 
Corporation is one of the partners. My question is what is 
DuPont's interest in invasive species and in pursuing this 
legislation? Is there a specific herbicide or chemical that 
they produce that is currently not allowed on Federal land?
    Dr. Beck. I think--I apologize for my hearing. You were 
asking about--is there a DuPont chemical that----
    Mr. Grijalva. Or a herbicide or a pesticide that they 
have----
    Dr. Beck. Yes, that is----
    Mr. Grijalva [continuing]. That is currently not allowed on 
Federal land.
    Dr. Beck. As far as I know, there is just one, and it is a 
compound that is brand new, and I just don't think there has 
been enough time to review it yet. But, other than that, I 
think most of the compounds can be used. There is a variation 
from agency to agency, and the time it takes for--when material 
appears on the market----
    Mr. Grijalva. Their reliance on the categorical exclusion, 
would that facilitate the use of any compound?
    Dr. Beck. I don't know, I would have to say. But the idea 
behind the categorical exclusion was related to early detection 
and rapid response. So we would certainly----
    Mr. Grijalva. Yes, you are protecting waterways, 1,000 feet 
from. If you are looking at long-term environmental effects of 
a use of a particular chemical, don't you think that is 
important to know ahead of time?
    Dr. Beck. Oh, absolutely. I think--first of all, we follow 
FIFRA, and the label--that we will not make errors, the label 
is--the guidelines and it will address how close any particular 
body of water you can get with the material, and there is a 
long list to choose from.
    Mr. Grijalva. Thank you, Doctor.
    Mr. Bishop. Thank you. Mr. McClintock, do you have 
questions?
    Mr. McClintock. Yes. Thank you, Mr. Chairman. Dr. Beck, you 
painted a damning picture of the Federal land management 
practices with respect to invasive species. What would you say 
are the reasons that the Federal Government has been such a 
poor land manager?
    Dr. Beck. Well, the picture about being poor land 
management is largely related to the insufficient funds that 
find their way out to the hinterlands, if you will, to solve 
whatever problem. In the case of invasive species--and my 
specialty is weeds--there is a pittance of money that finds--I 
mean, and I know it is a large sum back here, but by the time 
it gets out to where it is being put to work, they are grossly 
insufficient.
    Mr. McClintock. Ms. Williams?
    Ms. Williams. Yes. I mean I think you would also want to 
compare the rate of control and management on state lands. 
These problems--some of these species have been here quite a 
long time; you are already behind before you start. Funding has 
been limited. That is why we need to take the collaborative 
approach that we do.
    I don't think there has been a showing that just switching 
the percentage of money going out to the field, even if this, 
in fact, does this, will have a demonstrable effect. I would 
rather sit down and really figure out what strategies, working 
with the states, would be beneficial, and how we better 
allocate our resources, rather than coming up with an arbitrary 
percentage.
    Mr. McClintock. Well, on that point, the Central Valley of 
California has been laid waste by water diversions under the 
ESA for delta smelt and salmon, yet the principal cause of the 
decline of these populations appears to be bass that just love 
to eat those things.
    Ms. Williams. I think that is one reason it is so important 
to do the research to figure out what are the real impacts of 
the species, are they impacting native and endangered species. 
I think that is where we want to keep the research and looking 
at all avenues of this early detection method response 
research, working with the public. All of those are important 
to identify the real impacts.
    Mr. McClintock. We have the same problem up in the Sierra. 
The critical habitat has been declared for a species of frog 
and a species of toad up there. Again, the principal cause is 
not human activity, it is invasive populations--again, non-
native species of bass that just love to eat those things.
    Why don't we take simple reforms, like opening up a bass 
for unlimited takes, for example? Why don't we open up these 
invasive species for unlimited takes?
    Ms. Williams. In some cases that has happened. You look at 
the Asian carp. The Asian carp they have dealt with, in many 
cases, allowing unlimited takes of those species. And so that 
is something that should be considered in a comprehensive plan, 
I agree with you.
    Mr. McClintock. Well, the House did send legislation to the 
Senate earlier this year and in the prior session to do 
precisely that. And it has been crickets over there. I yield 
back.
    Mr. Bishop. Thank you. Ms. Bordallo, do you have questions?
    Ms. Bordallo. Thank you, Mr. Chairman. I thank you and 
Congressman Horsford for the introduction of H.R. 3994.
    Invasive species has very serious and negative consequences 
on our environment and our ecosystem. On Guam we know all too 
well the impact of a number of invasive species on our way of 
life. The most popularly known are the brown tree snakes; they 
have decimated our bird population. Fire ants threaten our 
animals and ecosystems. And the rhino beetles threaten the 
coconut trees.
    I am concerned that this bill does not quite get to the 
heart of the problem, which is research and preventative 
methods and strategies. So, currently, we are in the throws of 
fighting the coconut rhino beetle, and additional research is 
needed. In the meantime, we have also prioritized public 
education so that the public can help with an active and 
informed role in stymieing the growth of the rhino beetle 
population.
    So, my first question is for Ms. Williams. This bill caps 
spending on investigations, outreach, and public awareness at 
15 percent of funds in any given year, while also setting 75 
percent of funding for control and management. So I am 
concerned that arbitrary limits on public awareness and 
preventative strategies could have an overall invasive species 
prevention efforts. So, could you please explain the potential 
impact of this legislation on ongoing scientific research and 
prevention strategies?
    Ms. Williams. Yes, we are unsure of the exact impact, but 
we are concerned that, in certain circumstances with a species 
that is widespread--like a cheatgrass--you really do want to 
put most of your effort in on-the-ground control methodologies. 
But for other species, where on-the-ground just doesn't even 
provide control or, as you said, for the rhino beetle or one of 
the other species where you really need to try to stop a 
pathway of spread and contain that, you might want to spend 
quite a bit more money on public education and outreach and 
maybe even exploring a harvest program, like the other 
congressman mentioned.
    So you just really want to have the flexibility, but maybe 
very strong measures that you want to meet to deal with 
invasive species so we can respond to the frustration that is 
out there that we are not adequately dealing with these 
species.
    Ms. Bordallo. Thank you. If you could make your answers 
brief, I have so little time here.
    My second question is for Ms. Wagner. How could this bill 
address and prioritize prevention?
    Ms. Wagner. The four strategies that I mentioned that are 
kind of at the heart of our strategic approach, prevention is 
featured as one of those. And I don't think there is any 
question that one of the most effective ways to protect forest 
waterways and grasslands from invasive species is to prevent 
them in the first place. And I think that is what citizens do 
with RVs and boats and those pathways needs to be addressed.
    Ms. Bordallo. And this would also include early detection?
    Ms. Wagner. Yes.
    Ms. Bordallo. Yes. And the final question is for either Ms. 
Williams or Ms. Wagner. This bill sets a 5-percent net 
reduction of invasive species populations on lands managed by 
the Secretaries of the Interior and Agriculture. Now, how could 
this net reduction requirement work, given, where there are not 
baselines of invasive species populations or quantitative 
impact?
    Ms. Williams. I guess I am not sure how it would work. In 
many cases we don't have the comprehensive inventory of 
invasive species on public lands. And I don't see how this bill 
would provide for even getting to that starting point.
    Ms. Bordallo. Ms. Wagner, you feel the same way?
    Ms. Wagner. What I might add is that a 5-percent net 
reduction in some populations, in some geographic locations, 
may be very doable. For other species, like white nose 
syndrome, it would be difficult to say if a 5-percent reduction 
is possible.
    Ms. Bordallo. Mr. Chairman, before I close off, I just want 
to mention that the brown tree snakes are the most popular 
known, when it comes to Guam, and funding has been reduced, 
while the population is increasing. And I yield back.
    Mr. Bishop. Thank you. Mr. Gohmert.
    Mr. Gohmert. Thank you, Mr. Chairman, and thanks to all the 
witnesses for being here.
    Ms. Williams, I want to direct my questions to you. I had 
written you back last year, because we have a huge problem in 
the South with a species called giant salvinia. And, as you 
point out in response, beginning at page--bottom of page 5 of 
your letter, here is what--your letter asks five specific 
questions. Well, I have four-and-a-half pages there of 
discussion about invasive species about the different 
prevention that is helpful. You mentioned that was really 
helpful for you to tell me that.
    But I have been trying to figure out what your Federal 
council does. And the best I can find out is we pay for you 
guys to have a real nice annual meeting, and people come in, 
and you sit around and talk. But I can't find that you have 
done a blessed thing to actually specifically stop an invasive 
species. And, in fact, at page 4 of your letter you say, 
``Neither NISC nor its staff has the capacity to coordinate the 
great number of site and species-specific efforts that are 
occurring across the country.''
    What, in heaven's name, are you doing? Give me one species 
that your Council has actually slowed the invasion of. Just 
one. Tell me what you have done, your Council, specifically.
    Ms. Williams. Well, if you talk about the Council, the 
Council is actually the Secretaries and the department heads of 
the 13 departments that work on invasive species. The goal--and 
the criticism of the Federal Government, it wasn't working 
together, and it didn't have a master plan.
    Mr. Gohmert. OK. But my question was very specific, and 
give me one species that your gathering together has helped 
stop or slow, because I am not finding anything. And when I 
originally found out about, wow, a National Invasive Species 
Council, where all these people come together, we need a 
coordinating agency that will bring together state, Federal, 
local people to help stop this thing that could actually end 
up--and has, in some cases, just completely overwhelmed a water 
facility, a lake, a place where, in one case, they are getting 
drinking water, they can't get it any more.
    And I thought this is ideal, they will coordinate all these 
efforts. And what I get is a seven-page letter back dancing 
around the issue, and it brings me back to this, that when we 
need to cut funding to help in areas where we can actually do 
some good, it looks like your Council is basically primed to be 
eliminated, because you are not coordinating anything.
    We wanted you to come in and help with the Federal, state, 
local, and you point out in here, ``However, NISC agencies, 
such as Fish and Wildlife Service, have been involved with 
the''--yes, we have gotten Fish and Wildlife to come in. We 
needed somebody to help coordinate the efforts. And if that is 
not you, I think we ought to eliminate your Council completely, 
and spend it on somebody who will get out there in the field, 
who will coordinate. End your little Federal meeting with all 
the money we are wasting on you guys coming together and 
talking about it. End the money that would send me a seven-page 
letter and only at the end say, ``Here are the five things you 
asked for.''
    In my letter I asked, ``Have any of the Federal agencies at 
NISC's direction engaged in a coordinated effort to address the 
spread of giant salvinia? What has NISC done to encourage 
planning and action at the local and state level to address the 
spread of giant salvinia?'' And I got nothing. So, unless you 
can tell me something specific that you guys at the Council 
have done as you come together--and we pay all this money for 
you to coordinate--tell me one specific invasive species you 
have helped coordinate the attack against, and maybe we will 
find that there is a reason for having this Council.
    But otherwise, we are better off spending that money to 
bring in Fish and Wildlife, having them get with the local 
Texas Parks and Wildlife and the local people at the lakes, to 
work together. Because I don't get the impression that you have 
ever actually done that. Have you?
    Ms. Williams. The Council, as I said, is for coordination 
and planning. What we have done is----
    Mr. Gohmert. And I am asking you what planning have you 
specifically done on any species.
    Ms. Williams. I will be glad to send you----
    Mr. Gohmert. Please.
    Ms. Williams [continuing]. The National Invasive Species 
Management Plans, the guidelines on early detection and rapid 
response, the guidelines on control and management, the 
encouragement for best management practices, the work we have 
done to foster regional coordination, the support of state 
invasive species councils.
    Mr. Gohmert. Thank you.
    Mr. Bishop. We will have other rounds here, as well. Mr. 
Garcia?
    Mr. Garcia. Thank you, Mr. Chairman. You know, my district 
represents the Southern Everglades. And so we have a huge 
problem with invasive species. It is something that I have even 
had on what was my farm. We once caught a 12-foot python that 
had consumed three of my chickens--or our chickens at the time. 
So it is a huge problem, particularly in South Dade.
    So, I would like to ask all of you. What can we do to sort 
of involve citizens more in a proactive way in this issue, as a 
first question. And I will leave it to those of you who want to 
answer.
    And then, you know, in this legislation there is some 
controversial use of pesticides or strong chemicals. What is 
the alternative to that? I understand what is here in the 
legislation we are looking at, but give me an alternative to 
that. And is there an alternative to that?
    Thank you, Mr. Chairman. How about we go from the right to 
left, or from the left to right? Go ahead.
    Dr. Beck. As far as alternatives to chemicals, there are 
other strategies, of course. Biological----
    Mr. Bishop. Mr. Beck, is your microphone on?
    Dr. Beck. It says it is on.
    Mr. Bishop. Pull it closer to your mouth.
    Dr. Beck. Sorry.
    Mr. Bishop. I am having a difficult time hearing you.
    Dr. Beck. That better?
    Mr. Bishop. That is much better, thank you.
    Dr. Beck. I can even hear that. There are alternatives to 
chemicals.
    The law also--or, excuse me, the bill also requires that 
integrated pest management approaches be used for whatever the 
organism is, and that is typically a combination of things. And 
that includes all of the management strategies like prevention, 
and not just control and management.
    Not all organisms have a biological control available to 
manage their populations. There is always a physical method, 
maybe like in the case of weeds, hand pulling. Unfortunately, 
in many cases like that, then the cost of managing that problem 
skyrockets to $1,000 or so an acre. So, many times a pesticide, 
as part of the management plan, is representative of something 
that is economically more efficient.
    As far as what we can do to educate the public, or get the 
public involved, is that very thing, is education. The Federal 
Government is not the only source of information. I work for a 
land grant institution, and I am busier than you can imagine. I 
have been this way for 28 years, educating the public. So there 
is lots of opportunity outside of the scope of H.R. 3994 to 
provide education for the public to get them involved.
    In fact, the law even says at the very end that it is not 
meant to usurp or preclude any other efforts that are ongoing 
at the moment. So even when it comes to research and things 
like that, we have other arms--USGS, USDA, ARS--that can and 
should be conducting what research needs to be done. Forest 
Service has their own research arm. And so, I think there is 
plenty of opportunity outside of the scope of the bill to 
achieve that goal.
    Mr. Garcia. And I want to hear from you, Ms. Wagner and Ms. 
Williams. But one of the things we have done, for example, we 
have, like, the invasive lion species in the Florida Keys. And 
so we have lion species hunts. We have now--the idea of re-
regulating some issues--for example, traps, fish traps, have 
not been something that we legally allow, so they now use 
lobster traps to catch these lionfish. But they have now become 
a delicacy on the menus. So there are no limits, and it 
obviously pleases our hunter friends.
    You know, when you look at coral reefs that have human 
usage--right, divers are always on them--they are clear of 
lionfish precisely because divers know they can take them out. 
And so the diving community has protected the asset themselves.
    I am sorry, Ms. Wagner.
    Ms. Wagner. I will just mention a couple of other 
opportunities for citizen involvement. I mentioned earlier in 
my oral comments the suite of authorities the Forest Service 
uses. And among those are things like volunteer agreements, or 
working with youth conservation corps. And many times, when 
they are out in the field, an invasive species project is part 
of the work that they do. So that's a really active connection, 
do something on the land, educate kids, build a constituency 
who understands the impacts and takes responsibility for 
addressing invasive species.
    Ms. Williams. Yes, a couple comments. First on the 
overall--the Everglades, one thing that we have been careful of 
at the national level, as important as national coordination 
is, many of these issues need to be solved at a regional level. 
And we have been very supportive of the work in the Everglades. 
And right now they are coming up with an invasive species 
management plan, the task force down there. They have been in 
communication with us, and we want to provide any support we 
can, and recognize that effort in the revision of our 
management plan. So that is an example of national working with 
regional and local.
    Our Invasive Species Advisory Committee, the meeting he was 
talking about, one of the meetings--they have put together a 
paper on using harvest incentives as an incentive to remove 
invasive species. I would be glad to send that very good paper 
to the members of the committee. And there will be a journal 
article about that to explore these--use them. Use them, if 
you----
    Mr. Bishop. Ms. Williams, please. You are out of time. 
Thank you.
    Mr. Garcia. Thank you very much, Mr. Chairman. Thank you 
all for your service.
    Mr. Bishop. Mrs. Lummis, you are recognized as long as you 
say absolutely nothing about Colorado State University.
    Mrs. Lummis. Fair enough.
    Mr. Bishop. All right, thank you.
    Mrs. Lummis. Fair enough, Mr. Chairman. Thank you, Chairman 
Bishop. And thanks for your hard work on H.R. 3994. Wyoming is 
half Federal lands. We have major issues with noxious weeds and 
pest management. And it affects ranching, it affects wildlife, 
it affects sage-grouse habitat and wildlife--and wildfire 
prevention, like Dr. Beck pointed out. So I am supportive of 
the bill, and appreciate your work on it.
    I would like to take some time today to talk about larger 
wildfire issues with Associate Chief Wagner from the Forest 
Service, so thank you for being here. Now, what I understand is 
Department of Defense has halted the transfer of surplus 
military equipment to states and local governments because of a 
new EPA interpretation of regulations barring the transfer of 
Federal vehicles that don't meet emissions standards.
    Now, that seems absurd, given that they are out there--they 
are being retrofitted by states and local firefighters to go 
fight fires, where there is a much higher carbon emission than 
could ever occur from a military vehicle that is being 
retrofitted. In fact, in Wyoming, nearly 40 percent of our 
wildland firefighting vehicles are excess military vehicles. 
Our guys spend the winter months in this Quonset hut in--
outside of Cheyenne, retrofitting those vehicles. And, all over 
the state, that is what the local folks are doing to retrofit 
them, because it is less costly than buying commercial 
vehicles.
    And I used to be the Director of the Office of State Lands, 
under which the Department of State forester resides, so I ran 
those agencies. I know exactly what they are doing in those 
buildings, and how much it saves us, in terms of our costs of 
firefighting. And, given the schizophrenic way that land is 
situated in the West, where you have private land, state land, 
Federal land, all right next to each other, and you've got 
these wildfires jumping from private land to state land to 
Federal land, we all have to work together to fight these 
wildfires.
    And I have done it personally. I have been out on fire 
lines. I have had it jump from state land, when I was the 
Director of the State Lands, to my own personal private land, 
to the Federal land, and have been out drenched in ash, 
firefighting with Federal folks and with state folks and with 
the neighbors. It is just a phenomenal effort.
    So, I want to visit with you about it, because it really 
hits home, personally, to me. Run me through, if you would, Ms. 
Wagner, how Federal land wildfire suppression is connected to 
local response, and how much the Forest Service relies on state 
and local agencies to respond to fires.
    Ms. Wagner. So, two comments. One, you have identified a 
very important issue: Federal excess property and the Federal 
firefighter property programs are absolutely vital to equipping 
local volunteer and local jurisdictions to participate in fire 
suppression. I know that Defense and EPA are in conversations. 
Our Chief and Under Secretary are monitoring that situation. We 
are hopeful and confident that resolution will take place, and 
there will be the ability to use that equipment to equip local 
firefighters and departments.
    Mrs. Lummis. I like your word ``confident.'' Tell me what 
gives you that confidence.
    Ms. Wagner. The dialog and some movement on the Federal 
firefighter program. I believe Defense and EPA released a 
statement yesterday. I have not seen that statement. I will 
make a commitment to keep you apprised of the progress that is 
being made on that.
    You are daylighting an important issue, and I think it is 
shared by a number of folks. So, people working together will 
come up with a solution, I am pretty confident of that. I will 
keep you apprised.
    Mrs. Lummis. Thank you. And I will very much appreciate 
being kept apprised, because the state foresters are people 
that I worked with and we rely on just unbelievably, 
enormously--our budgets in state forestry all around the West 
in firefighting are enormous. And I think a lot of times the 
Federal Government and we in Congress think, oh, we are putting 
out all this money for firefighting. If you think we are 
putting out a lot of money, you should see what the states and 
locals are doing. And the volunteer hours, there is no way we 
could fight these fires without the local volunteers. And those 
local volunteers are relying on that equipment.
    So, thank you for your confidence, and I hope your 
confidence bears the fruit we need. Thank you. My time is up.
    Look how precise I was about my timing, Mr. Chairman. I 
hope I get brownie points in the second round, maybe.
    Mr. Bishop. You will.
    Mrs. Lummis. Thanks.
    Mr. Bishop. You will. You may even get some brownies.
    Mr. Daines, you have questions?
    Mr. Daines. Mr. Chairman, thank you. And regarding the 
Colorado State University, I have to say my son is a proud Ram 
graduate--engineering degree--recently. Dr. Beck, we are very 
happy parents. Even though I am a Montana State University 
Bobcat, we are happy parents. We have a Ram in the family as 
well, now.
    But--so greetings from Montana. In fact, on Monday I was 
with our smoke jumpers in Missoula, getting a briefing as we 
are getting ready for fire season. What a tremendous group of 
professionals there. Very, very impressed with what they do. 
And 95 percent success rate when they drop those jumpers in to 
stop the fires before they become wildfires.
    But, as you know, we have over 7 million acres of forest 
land in Montana that is at risk of mortality from insects. I 
remember growing up in Montana, we saw the beetle kill come 
through back in the 1970s and 1980s. We are seeing similar 
kinds of invasive species now across the state.
    We have heard from the Forest Service and other Federal 
land management agencies that they spend millions of dollars on 
the NEPA analysis, including excessive analysis on some of 
these treatments for invasive species, in order to protect 
their decisions from these habitual litigants. It seems like 
any more in Montana the trial lawyers are running our forests, 
instead of forest management professionals and the people of 
Montana.
    Do you have any sense of how many dollars are spent, how 
much goes toward invasive species management, roughly?
    Ms. Wagner. Our overall investment is about $55 million in 
treatment.
    Mr. Daines. In treatment?
    Ms. Wagner. Mm-hmm.
    Mr. Daines. And this H.R. 3994, what I am glad to see, it 
provides some streamlining of NEPA analyses on these projects, 
so we can spend more time actually addressing invasive species 
here, instead of having to look over our shoulders at the trial 
lawyers and these habitual litigants. And I hope this will 
reduce this analysis paralysis that we are seeing, and thereby 
improve our forest health, and protect public safety and 
infrastructure, certainly.
    Additionally, both the Department of the Interior and the 
Forest Service tout the working relationships with local, 
state, and our tribal governments. However, I do hear from my 
constituents in Montana there can be a lot of improvement in 
Federal land management if local governments had more input and 
authority. H.R. 3994 protects the ability for local and state 
governments to enter into partnerships under the new 
streamlined regulatory framework provided under this bill.
    I will start with Ms. Wagner and then to Ms. Williams. Can 
you tell me how important it is for the Federal agencies to 
partner with our local and state governments?
    Ms. Wagner. I don't think there is any question that 
invasive species takes all of us. It doesn't recognize 
boundaries. And I think some of the most successful efforts are 
really those grass roots local entities, cooperative weed 
management associations or areas, cooperative invasive species 
management areas, locals working together across boundaries, 
county local municipalities, volunteers, working with their 
state partners and Federal partners to address the issues, I 
think that is where the real success is generated in a lot of 
cases.
    Mr. Daines. How significant do you think the threat of 
litigation is, in terms of the way you run your processes?
    Ms. Wagner. It is really somewhat situational. The majority 
of our expenses relative to environmental analysis, we think, 
are important disclosures of impacts, and citizens are 
interested, and all of that. The majority of our decisions 
aren't actually litigated or appealed. But in those cases where 
we have an environment--and Montana has one of those 
environments--where we are in a bit of that----
    Mr. Daines. Yes, I probably should have targeted Montana 
there, where the----
    Ms. Wagner. Yes
    Mr. Daines [continuing]. Part of the Ninth Circuit Court, 
which tends to be a flashpoint, certainly, of activism----
    Ms. Wagner. I do know that, in many cases where projects 
have been developed collaboratively----
    Mr. Daines. Yes.
    Ms. Wagner [continuing]. Local, state, and Federal partners 
are all working together with non-governmental organizations 
and other citizens, we are having a great rate of success of 
prevailing in those lawsuits, or not being litigated at all, 
because of the way the projects were developed.
    Mr. Daines. Ms. Williams, do you have a thought on that, as 
well?
    Ms. Williams. Well, I would agree with everything Ms. 
Wagner said, and I would have to get back to you with the 
specifics of litigation.
    But one thing the Bureau of Land Management and other 
agencies are exploring is programmatic EISs, so that that would 
reduce the cost and necessity to do an individual EIS for each 
of their projects. So that is one alternative to a categorical 
exclusion we might want to look at.
    Mr. Daines. OK, I would appreciate some follow-up on that.
    Chairman Bishop, I have heard from our Montana tribal 
governments that they want to be better partners with the 
Federal agencies in managing invasive species on the 
reservation or in areas that neighbor the reservations. H.R. 
3994 does not explicitly allow for tribal governments to take 
advantage of the benefits of invasive species treatments under 
the bill, and I hope that we can maybe fix that in mark-up on 
this legislation.
    Mr. Bishop. Thank you. Yes, we can.
    Mr. Daines. OK. Thanks, Mr. Chairman.
    Mr. Bishop. It is good of you to be looking out for your 
constituents that way. We will increase that, we will do that.
    Mr. Daines. Thank you, Mr. Chairman.
    Mr. Bishop. Thank you. With that--and I should have 
extended the ban on Colorado State comments further on than 
just Ms. Lummis, but I appreciate that.
    Mr. Daines. Go Rams.
    Mr. Bishop. Yes, OK. And if we can get you out of the Ninth 
Circuit, we can solve a whole lot of other problems.
    Mr. LaMalfa, I appreciate you coming here. Would you like 
me to go first with some questions to give you time to catch 
up? I realize you came in from another meeting. Let me ask a 
few, if I could.
    Ms. Wagner and Ms. Williams, I was going to ask you how 
many acres we are talking about that are infested, but Dr. Beck 
had the numbers up there. Do you dispute the numbers that he 
has shown, as far as infestation or restoration reclaiming 
efforts?
    Ms. Wagner. So, Mr. Beck's data was 2009, I believe. We 
currently estimate infested acres on national forests at 20 
million acres. We treat about 400,000 acres per year. And out 
of that 400,000 acres treated per year, we believe that about 
300,000 of those acres are actually restored and reclaimed, 
meaning resilient to further infestations.
    Mr. Bishop. Ms. Williams, do you have a different number 
than Dr. Beck had in his figures?
    Mr. Williams. I would like to provide that for the record, 
because I have five different agencies. And so, if I could 
provide those figures for the record, I would be glad to do 
that.
    Mr. Bishop. Ms. Williams, how much does it cost you, your 
agency, to treat an acre of infested weeds, on average?
    Mr. Williams. I would have to get back on the record for 
that.
    Mr. Bishop. Ms. Wagner, do you have that number?
    Ms. Wagner. We have a range, and it is very situational.
    Mr. Bishop. Give me the range.
    Ms. Wagner. Interior Alaska, expensive----
    Mr. Bishop. Give me the range.
    Ms. Wagner. About $100 per acre to over $2,000 per acre. 
But, on average, we would say $250 to $300 per acre, on 
average.
    Mr. Bishop. Thank you, I appreciate that.
    Ms. Williams, can you have a net 5-percent reduction 
applied to Asian carp, zebra mussels, and other invasive 
animals?
    Mr. Williams. I think that would be very difficult at this 
point, without having better baseline data about their 
populations----
    Mr. Bishop. You don't have the baseline data of those 
invasive animals?
    Mr. Williams. Asian carp we would. Quagga and zebra mussels 
we might, but there are many other----
    Mr. Bishop. So if you have--let's just do those two. You 
would be--a bill that--you would have the ability to get a 5-
percent reduction in those invasive animals. You have the 
baseline, you could find out what the effective rate would be.
    Mr. Williams. We could calculate what that would be.
    Mr. Bishop. All right.
    Mr. Williams. I don't think we would have the resources 
to----
    Mr. Bishop. OK. Ms. Williams, how much do you spend right 
now on investigation, outreach, and education? What percent of 
your budget goes to that?
    Mr. Williams. I would have to get that for the record.
    Mr. Bishop. I need that, because that was the comment that 
you wrote about Section 4. You made that comment without 
knowing what you are now spending on that area?
    Mr. Williams. What it does is set an arbitrary limit.
    Mr. Bishop. No, I am asking. Do you know what--what you 
have just told me is you don't know how much you are spending 
on that area right now, even though that was one of your 
criticisms----
    Mr. Williams. I need to provide the record----
    Mr. Bishop. Yes, you do need to provide that. Thank you.
    Let me ask you, then, the other one. How much do you spend 
on administration right now?
    Mr. Williams. I would need to provide that, because of the 
five different agencies, for the record.
    Mr. Bishop. So you gave me a written comment and came up 
with oral comments, and those were your criticisms, but you 
don't know what the answers are to those two? That is 
disconcerting, that you would actually come up without having 
that kind of data available. Because I think it is essential to 
the questions that you are raising in your written and oral 
testimony.
    Dr. Beck, let me go to a couple of questions for you, then. 
What ways--in broad terms--let's do this briefly, and there 
will be other rounds here. H.R. 3994, how could that help 
Federal land management achieve and reduce populations of 
invasive species better than we are doing under current status 
quo law?
    Dr. Beck. I believe that more money would get out to the 
areas where it needs to be spent to manage the problems 
specifically, rather than drastically--insufficient budgets 
that--and it doesn't matter which agency. By the time it gets 
out to the West, in particular, it seems like it is minuscule, 
compared to what it was.
    Mr. Bishop. And your testimony was, ``If we keep on going 
on the current status, the direction we are doing, what we come 
up with is''--what were the numbers--``150 million acre 
increase''?
    Dr. Beck. No, about 120 percent increase.
    Mr. Bishop. OK.
    Dr. Beck. And that is using a fairly conservative figure. 
Spread rates for weeds vary from about 5 percent to 25 percent. 
So it is species-oriented.
    Mr. Bishop. All right. I have less than a minute. I will 
try and do this as quickly as we can. What is meant by a 5-
percent annual reduction in invasive species population? What 
does that mean?
    Dr. Beck. What it means is that you account for the rate of 
spread that inevitably will occur, and you must exceed that 
rate of spread to achieve a 5-percent decrease. So in the case 
of my example on weeds, if they are increasing at 12 percent, 
the target should be 17 percent to achieve that 5-percent 
reduction. Otherwise, all we are doing is not even slowing down 
the rate of spread.
    Mr. Bishop. So, 5 percent is not 5 percent. Five percent is 
determined by the situation in which it comes to reach that 
particular goal.
    Dr. Beck. That is very correct.
    Mr. Bishop. In which case you would have to have the 
baseline and you have to know what your effective goal actually 
is.
    Dr. Beck. That, too, is correct.
    Mr. Bishop. All right. There will be another round of 
questions here.
    Mr. LaMalfa, do you have questions? And I will yield to 
you. We will recognize you.
    Mr. LaMalfa. Thank you, Mr. Chairman. Pardon me, panelists 
and Mr. Chairman, for--there was a conflicting Ag. Committee 
meeting a while ago, so I didn't get to hear testimony.
    So, if it is not too redundant, Dr. Beck, when we see this 
ever-proliferating invasive species of noxious weeds--I am a 
farmer in northern California. We--it is a huge problem for a 
lot of my colleagues, as well, ranching. What is the 
relationship with the public land versus private lands that are 
managed differently--I would say better. What are you finding 
in your travels is the overall view of public land, the way it 
is managed, and how it keeps up with these invasive species, 
the noxious weeds, et cetera, versus private land?
    Dr. Beck. Oftentimes public lands are a source of the 
problem. In the Federal lands, of course, being a rather large 
amount, particularly in the western United States, then becomes 
a sizable issue. But it is also state and county lands. But 
public lands are not as well attended to as private lands.
    Mr. LaMalfa. In one of the statements here it did talk 
about how most of our tax dollars that flow through Federal 
agencies for management, the vast majority doesn't actually get 
to the end use, that it is lost along the way. Can you comment 
on that?
    Dr. Beck. I taught a workshop--now, let's just use this as 
an example--back in May in Montrose, Colorado, on the West 
Slope. And there was a wide variety of people there. Amongst 
them was someone new who worked for the Forest Service near 
Paonia. And she was in charge of the invasive species program. 
And apparently she only gets $7,000 a year for the entire 
forest to deal with all the issues and every manner--paying for 
vehicles, whatever tools they are going to use, the labor. Very 
insufficient.
    Mr. LaMalfa. Ms. Wagner, following up on that same 
question, you have a budget for this that the Congress, via the 
taxpayers, provide. How do you feel about how the end result 
comes along versus the dollars that are lost along the line in 
the administration? What do you think--and what H.R. 3994 is 
trying to do, how will that be a tool for you?
    Ms. Wagner. I appreciate the question. So, as we assess our 
appropriated dollars and what we invest in, we would say 
roughly 75 percent of our appropriated dollars do go to 
treatment on the ground. That differs from Mr. Beck's--or Dr. 
Beck's characterization. So we would like to follow up with 
some specific detailed information about our expenditures that 
would be helpful to that.
    Mr. LaMalfa. May I--Mr. Chairman, is that consistent with 
what we have been understanding, that 75 percent gets to the 
ground?
    Mr. Bishop. I think you should ask Dr. Beck that question.
    Mr. LaMalfa. Yes, OK. Well, I guess we have a dispute here 
on that, because we are stewards of tax dollars and we want 
results. And so, Dr. Beck, please follow up on that.
    Dr. Beck. Well, I would--in this case that I used as an 
example, I can't imagine $7,000 being 75 percent of anything, 
and certainly not 75 percent of what started out from here, and 
I think that is part of the problem is, as money flows, it just 
gets touched by a whole bunch of folks before it gets to the 
people who need it. These people are my heroes, they are trying 
to get this job done out on the ground.
    Mr. LaMalfa. OK. Back to Ms. Wagner on that. Now, it 
requires an infusion of tax dollars from the U.S. Treasury. But 
if we are able to do more timber harvests and get more of those 
receipts in that seem to be so difficult to accomplish these 
days--I know at least in California--how much more income could 
we be generating that stays within the system?
    And can we do more things that--do you need our help to 
have that money say within the U.S. forest system to go much 
farther toward these goals from more timber receipts, et 
cetera? What can you tell me there?
    Ms. Wagner. I would say that the Forest Service has a very 
strong interest in ensuring that we are creating resilient 
ecosystems. And in our forested ecosystems, active management, 
thinning, creating resilient forests, that is a very important 
goal for us.
    When we sell timber or have proceeds--products that 
generate value, we return a percentage of that to the Treasury. 
We keep a percentage of it for reforestation or Knutson-
Vandenberg-type activities, which includes invasive species 
treatment in that impacted area, and brush disposal.
    Mr. LaMalfa. And these are all concurrent. If there is a 
timber harvest going on, you are accomplishing timber value, 
you are accomplishing forest safety, health, fire----
    Ms. Wagner. Yes.
    Mr. LaMalfa [continuing]. Danger improvement, all that. In 
addition, at the same time, invasive species are being 
mitigated, as well.
    Ms. Wagner. They would be treated in that project area, 
yes.
    Mr. LaMalfa. So if we are doing more of this, we are having 
a lot more effect, plus positive timber receipts at the same 
time.
    Ms. Wagner. Mm-hmm.
    Mr. LaMalfa. OK, thank you. I yield back.
    Mr. Bishop. Thank you, appreciate the questions. Ms. 
Lummis, do you have another set of questions for these 
witnesses?
    Mrs. Lummis. Mr. Chairman, I would like to just ask Dr. 
Beck a couple of questions.
    Could you rank the biggest invasive species issues facing 
the Rocky Mountain West right now?
    Dr. Beck. Well, one that jumps to mind is cheatgrass. I 
mean it is enormous, to be sure. But, I mean, I have been asked 
that question, ``Where do we start managing cheatgrass?'' And 
my response was a little short, but I said, ``Well, it really 
doesn't matter, but someplace.'' And what I really mean by that 
is I would start off with something visible, so you can show 
the public that we are effective at this. But that is probably 
one of our biggest problems in the western United States.
    Mrs. Lummis. OK. Let's focus on that right now. How might 
the Federal Government go about working with local land owners 
and state lands to better manage cheatgrass?
    Dr. Beck. I can--I have a project I just finished, and the 
BLM was involved in that project. And it is because they are 
trying their level best to manage the problem. And this is an 
area close to Grand Junction. So there is involvement there. 
And I certainly don't want to leave anyone with the impression 
that the agencies aren't doing anything, but they just have 
insufficient funds to achieve the job at the right level.
    Mrs. Lummis. Yes, it is an enormous problem. Livestock 
grazing actually helps manage cheatgrass, would you agree?
    Dr. Beck. Absolutely.
    Mrs. Lummis. And can livestock be used in a way that is a 
benefit to suppression of endangered species?
    Dr. Beck. Well I am certain in a form of habitat 
improvement they could be used--I mean one must be, of course, 
prudent about how they manage their livestock. But typically, 
grazing--the lands in the western United States, especially in 
the Great Plains, evolved with grazing. So that is going to 
create the most resilient systems. And if we avoid grazing, 
then it is a disturbance. We consider, on the short grass step, 
the lack of grazing to be a disturbance, which is quite 
interesting, in and of itself.
    Mrs. Lummis. What about using either sheep or goats to 
manage leafy spurge in the area where there are trees along 
creeks or rivers in the West that would respond poorly? Meaning 
the trees would respond poorly to Tordon or something. Can you 
use sheep and goats to graze down and control leafy spurge that 
way?
    Dr. Beck. Absolutely.
    Mrs. Lummis. Have you done that in Colorado?
    Dr. Beck. Yes, yes, we have. I did about a 6-year research 
project. Now we use sheep, goats tend to eat more forbs than 
sheep, so they are a little bit more efficient. But we found 
eight sheep grazing for 10 days, in combination with flea 
beetles on this particular project, we eliminated leafy spurge. 
It was a pretty good project.
    Mrs. Lummis. Would something similar work before cheatgrass 
has headed out in areas where cheatgrass has come in following 
a forest fire?
    Dr. Beck. Yes. The grazing would help. What I have noticed, 
just practicing weed management, if you will, is you can mow, 
you can graze off cheatgrass multiple times, and it will reset 
new seed, but at a drastically decreased rate. So, ultimately, 
something besides just grazing would have to be done. But that 
certainly could be a component of such a management system.
    Mrs. Lummis. With cheatgrass being so prevalent and 
invasive after a wildfire, the better course of action is to 
not have the wildfires go so massively across these mountains, 
and especially in areas where bark beetle kill creates an 
environment in which a forest fire or a canopy fire can thrive. 
Is that a fair statement?
    Dr. Beck. I believe so. I am not an expert on fire, but 
yes, that is probably a fair statement.
    Mrs. Lummis. Is it a fair statement to say that cheatgrass 
is a chief invasive species after a wildfire?
    Dr. Beck. Oh, absolutely. I mean it has to be present there 
to begin with, but fire rarely destroys seed. It is kind of a 
misnomer that some people have. Fire actually stimulates the 
germination of seeds. Some brilliant biochemists in the early 
parts of this century identified the compound in green plant 
smoke that stimulates seeds to germinate.
    Mrs. Lummis. And how does cheatgrass invasion affect 
endangered species such as sage-grouse?
    Dr. Beck. There is a pretty direct relationship there. It 
seems like, because cheatgrass causes fire, you are destroying 
nesting habitat and habitat where they would seek hiding from 
predators. But it is also the--brood success seems to be at the 
base of the problem with the sage-grouse. And after fires, most 
of the anthills that--which are--ants are a primary food source 
for the chicks--those are eliminated after the fire.
    Mrs. Lummis. I didn't know that. Thank you, Mr. Chairman. I 
learned something today.
    Mr. Bishop. I am going to take his 30 seconds over off of 
my time, because that was the question I wanted to ask. I 
appreciate that. We have a lot of people talking about sage-
grouse in the future. You know, 43 percent of my state is 
actually controlled by the BLM. And yet, if we are not going to 
actually deal something with invasive species that create 
wildfires, which is the greatest source of lack of habitat, 
then we are fooling ourselves thinking that Fish and Wildlife 
can actually superimpose a requirement when we don't have the 
vehicle to do it. So I appreciate that comment. I would 
seriously put me at 4 minutes, and we will go on from there.
    Dr. Beck, let me ask you a couple other questions. Let's go 
on to the NEPA categorical exclusion language that is in there. 
What is the purpose of the NEPA categoric exclusion language in 
the legislation?
    Dr. Beck. Well, I think the purpose behind that is to 
provide the tools, the necessary tools, for early detection and 
rapid response. And, obviously, this would be the rapid 
response. So, in the case of a weed, it may be a new 
infestation of cheatgrass. When it first shows up, the 
categorical exclusion then would allow the use of a herbicide 
to get rid of that.
    Mr. Bishop. So, there are a lot of groups out there that 
are opposed to categorical exclusions for political reasons. I 
want you to address this, simply from a scientific standpoint 
that you bring with both the coalition, as well as your work at 
the college. What, therefore, then, are the environmental costs 
of the NEPA delay that is in treatment, compared to the 
environmental risks by using a categorical exclusion to 
expedite those treatments?
    Dr. Beck. Well, without the categorical exclusion, or some 
kind of mechanism similar to that, the agencies would lose the 
opportunity to exterminate that plant, or eradicate it from the 
environment. I will use a case. Right now we are working with a 
private rancher on a 15,000-acre ranch on the western parts of 
Colorado. And we discovered two paper-sized patches of 
cheatgrass. And as we can tell, they are the only ones. And so, 
my advice to them--and we are actually going to provide them 
with the compounds to do this--is to spray it and get rid of it 
before it goes over the entire ranch.
    Mr. Bishop. All right. So, from your scientific point of 
view, which is the greater risk? Is it the risk of delay or the 
risk of actually doing something quicker under categorical 
exclusion?
    Dr. Beck. My scientific perspective is the risk associated 
with not acting as quickly as possible far exceeds the risk of 
using the chemical.
    Mr. Bishop. All right. You work with--Dr. Beck, you work 
with many Federal land managers in the field. Are they, in 
general, more supportive of these kinds of reforms that we are 
talking about than the agency testimony you have heard today?
    Dr. Beck. Very much so. They are very, very frustrated, not 
only with insufficient budgets, but also some of the process 
associated with using the new tools that become available. And 
again, the variation from agency to agency is pretty 
extraordinary.
    Mr. Bishop. Ms. Wagner, the Forest Service seems to be a 
little bit more effective and efficient in dealing with 
invasive species than the Department of the Interior. Do you 
list that simply because of the different topography in which 
you deal? What is your success, relative to the other agency, 
what is the purpose for that, or reason for that?
    Ms. Wagner. For the Forest Service, we are part of four 
other agencies in USDA who have a very aggressive stance. USDA, 
overall, spends over $1 billion in invasive species program 
delivery and management over the course of a year. The Forest 
Service is devoted to land stewardship.
    I would say permittees oftentimes are that front line of 
early detection.
    Mr. Bishop. I appreciate that. I am going to cut myself off 
here for the timing element. Just add some categorical 
exclusions, and you will be doing great.
    Mr. LaMalfa, do you have some other questions?
    Mr. LaMalfa. Yes, I do. Thank you, Mr. Chairman. Ms. 
Wagner, in my area here in northern California, and also part 
of Nevada, we have a newer problem here with a--something 
called the chytrid fungus has affected the mountain yellow-
legged frog and Yosemite toad and those populations, as have a 
lot of amphibians around the world, have been affected by this 
fungus.
    And so, recently, the Fish and Wildlife Service has chosen 
to list them under the ESA. So now we have that to deal with in 
these forested areas, where you are coming on the heels of the 
gigantic rim fire in the Yosemite area last year. I am really 
concerned we are going to run out of options on how to manage 
the areas for the forestry practices we need to be doing along 
with all the invasives. And I suppose we could count the 
chytrid fungus as an invasive problem, as well.
    So, can we count on you, as the rules are being developed, 
or what have you, for how that is going to be combated?
    My concern is that people's involvement, their activity in 
that forest is going to be limited, even though people, human 
activity, had nothing to do, really, with the chytrid fungus 
taking effect there. We still need to do perhaps even more 
forest management for the fire purposes, for the invasive 
purposes, and whatever positives can be done to remedy the 
chytrid fungus. Can we count on you to be an ally in the 
arguments that we should not stop human activity in these areas 
because of all these invasives, especially because of this 
listing now for the toad and the yellow-legged frog?
    Can we count on your advocacy to say, ``Look, don't stop 
these harvest activities and other things that we need to be 
doing in the forest; they don't really have anything to do with 
the fungus'' ?
    Ms. Wagner. Sir, I am going to have to admit I don't know 
about this fungus and these listed species, but I will follow 
up and get more information about the intersection between 
these species, the listing, and our forest management 
activities.
    Mr. LaMalfa. Please take that back with you to--because, 
again, we don't know what the rules are going to be on the no-
forest intervention by people, or what have you. We don't know 
what is going to come on that. It really shouldn't be that, 
because it is a fungus, and that should be addressed somehow 
that way.
    As well, getting back to this area of Nevada and northern 
California, where we have a sage hen situation, I hope we can 
get ahead of it here. We are talking about cheatgrass and other 
issues. But also, we want the sage hen to recover, and it 
requires certain types of species, and not the ones that have 
taken over, as far as the grasses, et cetera. But also, we have 
a wild horse problem, where we have a management plan that--
they have targets there for what the wild horse population 
should be. Some is on Forest Service, some is on BLM, that 
really aren't even coming close to being met.
    Would you, for your part, consider the wild horse, in its 
over-population, to be one of the invasive species?
    Ms. Wagner. I am honestly not sure if--I don't believe it 
is considered an invasive species. Wild horse and burros are 
something that we collaborate with our colleagues at Department 
of the Interior to manage on public lands. I am going to have 
to get versed in answering your question, and I will follow up 
with you on that.
    Mr. LaMalfa. OK. Because, again, you know, everybody likes 
the wild horses in the romantic tone, I guess. A lot of 
ranchers don't like that there are 10 times the population as 
supposed to be sustainable in some of these zones of the right 
amount of wild horses, in addition to grazing, in addition to 
maybe areas where none of it should be going on. So it is 
having a very devastating effect on the ecology of that land, 
as well as the neighbors there that have for over 100 years in 
some cases been able to operate cattle operations, as well.
    So, it really needs to be looked at that way, and get to 
the right size population on the horse population. Otherwise, I 
think it is another invasive species, as any other are in that 
context.
    So, Mr. Chairman, I will yield back.
    Mr. Bishop. Do you have other questions? All right. And I 
appreciate the question. Certainly it is not an endangered 
species, and it is not a native species. I think invasive is 
the only thing that is left, isn't it?
    Dr. Beck, let me come back to you for just a second. When 
we talk about 75 percent going for on-the-ground control and 
management, what activities are included in that term? What do 
we mean by that term? And--well, first, what do we mean by that 
term?
    And then the second follow-up is what currently is being 
done that could be curtailed by this type of definition?
    Dr. Beck. On-the-ground is a very broad term. My 
perspective on that would be--obviously, one is decreasing the 
population of the target species. And it doesn't matter what 
technique, but it could be a herbicide, it could be something 
physical, it could be biological control.
    But it also involves, then, if there is labor associated 
with that, that is also a cost associated with the on-the-
ground control. Vehicle cost and whether it be gasoline, 
depreciation, that has to be figured in in the on-the-ground 
cost, as well.
    Mr. Bishop. So is there something that would be curtailed 
by delineating 75 percent going on the ground?
    Dr. Beck. I think we could partner better on education. 
There is a distinct need for research, but there is a pile of 
research that we could coordinate. There seems to be a lot of 
redundancy about invasive species, which--for years, that was 
not a bad thing. But I think now it is to the point that 
duplication of effort--those are things that we could divert 
money from.
    So in education--I am an educator. I have a deep 
appreciation of that. But we can work with the land grant 
institutions throughout the country to help provide some of the 
education, and then relief to the Federal agencies that are 
doing that. And I think that would be a benefit, and provide 
them with the opportunity to put more money on the ground.
    Mr. Bishop. So we may be talking about also the difference 
between the cost of using a herbicide, for example, versus 
manual eradication?
    Dr. Beck. Oh, yes, absolutely. The cost of control--I mean 
the reason we developed herbicides--and they are ancient, they 
go clear back to just salt. But the reason we use them is to 
save labor. And typically, it is, you know, somewhere between 
50 and 70 percent of the price of raising a crop is still weed 
control. We can be much more efficient by using a herbicide, 
and to suppress the populations is one of the first logical 
steps in the management program.
    Mr. Bishop. All right. I thank you for that.
    Ms. Williams, let me just end by expressing some 
frustration I have with your Department--not just you, but the 
entire Department of the Interior--and the kinds of testimony 
that they are coming and giving us.
    As I look at the written testimony, the only two things 
that actually are put in definitive statements are that this 
bill would actually limit your flexibility and cap your 
administrative costs. Everything else is done in subjunctive 
case: it might, it could, it should, it would have, and 
oftentimes. Even in your oral testimony, you made 2 sentences 
that were definitive, and 10 sentences, once again, in 
subjunctive case. That does not help with that kind of 
testimony.
    And the two questions that I asked you, for not having 
those answers ready, and coming up here not prepared with those 
answers when it was the crux of one of your criticisms, is 
unacceptable. I am very dismayed with the testimony that we are 
getting from the Department. It is not just this particular 
hearing; it seems to be a pattern. But I would hope that the 
testimony would be more specific, and not having to report for 
the record, especially when you are the one who added--your 
Department added those criticisms in the written testimony. 
That is unacceptable.
    With that, I do want to thank all of you for coming here 
and participating in this hearing. This is another issue that 
is extremely significant. We have to get control of invasive 
species, or we--we have to. There is no other way around it. 
And, obviously, what we are doing in the status quo is not 
working. There needs to be a better way.
    I guess I could ask one last thing. Dr. Beck, when we first 
started talking about these things, the Coalition actually 
requested or hoped that there would be a whole lot more money 
that could be put into this. In our budgetary climate, that is 
not acceptable, that just doesn't work. Money, and pouring more 
money at it, is not going to be the solution. We have to be 
more intelligent and more effective in the way we use the 
funds. And that is why I appreciate the Coalition's efforts to 
try and craft language in here that makes sure that we direct 
the funds where they need to be, and the definitions that we 
have in here from both on-the-ground, as far as categorical 
exclusion, that becomes significant to it.
    I want to thank you. I need you to wait for just 1 minute, 
because there is one concluding sentence I have to have. I wish 
I could remember what it is. And it is going to be something 
like there are other questions people may have for you, they 
will be coming back to you, and--that is not it. Oh, yes. And 
so, we may have additional--you are even worse than 
parliamentarians on the Floor, I am sorry. They don't like me 
to ad lib, either. Members of the subcommittee will have 
additional questions. We would like you to respond to that in 
writing.
    With that, the hearing record is going to be open for 10 
days to receive those kinds of responses or questions, if 
indeed they have.
    Thank you all for showing up, thank you for traveling great 
distance to be here. I appreciate your participation in this 
hearing as we go forward with these, this piece of legislation, 
as well as the Kilmer piece of legislation.
    And, with that, unless there are other questions--but there 
is no one here to--it is just you all and I, right?
    I don't have any other questions for you. So, with that, 
the hearing is adjourned.

    [Whereupon, at 11:34 a.m., the subcommittee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

        Letter Submitted for the Record in Support of H.R. 4751

                        National Parks Conservation
                                        Association (NPCA),
                                                      July 8, 2014.

House Subcommittee on Public Lands and Environmental Regulation,
Washington, DC 20515.

Re: Please Support H.R. 4751: Bainbridge Island Japanese American 
        Exclusion Memorial

    Dear Members of the House Public Lands and Environmental Regulation 
Subcommittee:

    Since 1919, the National Parks Conservation Association (NPCA) has 
been the leading voice of the American people in protecting and 
enhancing our National Park System. On behalf of our more than 800,000 
members and supporters nationwide, I write to urge you to support H.R. 
4751 when it comes before the subcommittee tomorrow, July 9. H.R. 4751 
would make technical corrections to Public Law 110-229 to reflect the 
renaming of the Bainbridge Island Japanese American Exclusion Memorial.
    On the morning of March 30, 1942, 227 Bainbridge Island men, women 
and children--most of them U.S. citizens--were escorted by armed 
soldiers to the Eagledale ferry landing. They solemnly boarded the 
ferry Kehloken and departed on a lonely journey with an unknown 
destination and fate. They were exiled by Presidential Executive Order 
9066 and Civilian Exclusion Order No. 1 because they were Nikkei--
persons of Japanese ancestry. With only 6 days notice they were forced 
to hastily sell, store, or make arrangements for all of their 
possessions, businesses and property. They were allowed to take only 
what they could carry or wear.
    The word ``exclusion'' is so vital to completely tell this sad 
chapter of American history, because not only were 120,000 Japanese 
Americans forcibly removed and placed behind barbed wire in internment 
camps, but anyone with a drop of blood of Japanese ancestry was 
forbidden to remain in the exclusion zone. We should remember and honor 
everyone who suffered from this unconstitutional violation of civil 
liberties, and vow to never let fear, hysteria and prejudice deprive 
anyone of life, liberty and equal protection under the law.
    It is the desire of a multitude of groups on Bainbridge Island; the 
Bainbridge Island Japanese American Exclusion Memorial Association, the 
Bainbridge Island Japanese American Community, and the survivors of 
those excluded from the community of Bainbridge Island as well as the 
City Council of the city of Bainbridge Island, the Bainbridge Island 
Historical Museum, the Bainbridge Island Chamber of Commerce and the 
Board of Commissioners of the Bainbridge Island Metropolitan Park & 
Recreation District that the memorial name be corrected. This unit of 
the National Park System should expressly acknowledge the exclusion 
experienced by these American citizens by correcting the name of the 
memorial to the Bainbridge Island Japanese American Exclusion Memorial.
    Thank you for considering our views.

            Sincerely,

                                             Craig D. Obey,
                         Senior Vice President, Government Affairs.

                                 ______
                                 

        Letter Submitted for the Record in Support of H.R. 3994

                                                      July 7, 2014.

Hon. Rob Bishop, Chairman,
House Subcommittee on Public Lands and Environmental Regulation,
1324 Longworth House Office Building,
Washington, DC 20515.

    Dear Chairman Bishop:

    As representatives of the powersports industry and off-highway 
vehicle (OHV) enthusiasts we write in support of, and to thank you for 
introducing, H.R. 3994, the ``Federal Lands Invasive Species Control, 
Prevention and Management Act.''
    As you know, this legislation would reduce the impact that invasive 
species have on public lands by directing the Secretaries of Interior 
and Agriculture to plan and implement invasive species programs that 
reduce invasive species populations by 5 percent annually. The bill 
also specifies that no less than 75 percent of budgeted funds be used 
each year for on-the-ground control and management of invasive species, 
making sure that as much funding as possible is used to treat the 
problem. Finally, the bill would require the appropriate Secretary to 
use sound scientific data when making decisions on methods of invasive 
species control.
    Invasive species can have a dramatic negative impact on public 
lands. Unless threats from invasive species are dealt with quickly and 
thoroughly, in some cases irreversible damage can occur to some of our 
Nation's most outstanding natural treasures. Your legislation will make 
sure that existing resources are utilized as effectively as possible 
and mitigation efforts will have the best possible chance for success.
    This issue is very important to the motorized recreation community 
both because invasive species jeopardize access for OHV recreation, and 
because responsible OHVers value public lands and want them to remain 
healthy and vibrant for posterity. Again, thank you for introducing 
this legislation and we look forward to working with you as it 
progresses through the legislative process.

            Sincerely,

                                               Larry Smith,
                                                Executive Director,
                     Americans for Responsible Recreational Access.

                                              Duane Taylor,
                                         Director, Federal Affairs,
                                       Motorcycle Industry Council.

                                                 Tom Yager,
                                                    Vice President,
                      Recreational Off-Highway Vehicle Association.

                                          Kathy Van Kleeck,
                       Senior Vice President, Government Relations,
                            Specialty Vehicle Institute of America.

                                 <all>
</pre></body></html>
